<html>
<title> - EXAMINING FEMA'S READINESS TO MEET ITS MISSION</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                       EXAMINING FEMA'S READINESS TO MEET ITS 
                                   MISSION

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2021

                               __________

                           Serial No. 117-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-515 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                                

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6

                                Witness

Ms. Deanne B. Criswell, Administrator, Federal Emergency 
  Management Agency:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10

                             For the Record

The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana:
  Letters........................................................    18
  Additional Letters.............................................    24
The Honorable Ritchie Torres, a Representative in Congress From 
  the State of New York:
  Letter From NYC Health + Hospitals.............................    53

                               Appendix I

Questions From Chairman Bennie G. Thompson for Deanne B. Criswell    65
Questions From Honorable Elaine Luria for Deanne B. Criswell.....    66

                              Appendix II

Letter From Everbridge...........................................    69

 
             EXAMINING FEMA'S READINESS TO MEET ITS MISSION

                              ----------                              


                         Tuesday, June 29, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., via 
Webex, Hon. Bennie G. Thompson [Chairman of the committee] 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Correa, Slotkin, Cleaver, Green, Clarke, Swalwell, Titus, 
Demings, Barragan, Gottheimer, Luria, Malinowski, Torres, 
Katko, Higgins, Bishop, Van Drew, Miller-Meeks, Harshbarger, 
Clyde, Gimenez, LaTurner, Meijer, Cammack, and Pfluger.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on examining FEMA's readiness to meet its mission. 
Without objection, the Chair is authorized to declare the 
committee in recess at any point. The gentlewoman from Florida, 
Mrs. Demings, shall assume the duties of the Chair in the event 
that I run into technical difficulties.
    Good morning. The committee is meeting today to discuss 
FEMA's readiness to meet its mission. We are pleased to be 
joined by the Administrator Deanne Criswell who was confirmed 
just 2 months ago. Administrator Criswell brings to the job a 
wealth of experience from her roles as a New York City 
Emergency Management Commissioner, leader of one of FEMA's 
National Incident Management Assistance teams, and over 2 
decades of service as a firefighter in the Colorado Air 
National Guard. I would also note that she is the first woman 
to be confirmed by the Senate to lead FEMA. I applaud the Biden 
administration for selecting highly-qualified individuals who 
reflect the diversity of our great Nation.
    Administrator Criswell steps into the role at a critical 
juncture as FEMA contends with on-going responses to previous 
disasters, including western wildfires and 2017 hurricanes, 
while also continuing to manage the COVID response, the current 
disaster season, and other emergencies.
    For example, in Mississippi we have suffered terrible 
losses from recent flooding and I know many other communities 
have dealt with similar disasters this spring and summer. Over 
the weekend, we also watched in horror as a tragic building 
collapsed in the Miami area. Last night, Tropical Storm Danny 
made landfall in South Carolina amid what is predicted to be a 
busy hurricane season.
    FEMA is playing a key role in the response to all of these 
incidents. The agency also continues to contend with long-
standing challenges like addressing a disaster assistance 
backlog, recruiting and retaining a qualified disaster 
workforce, and addressing incidents of harassment and 
discrimination, and bolstering employee morale. The men and 
women of FEMA have been doing yeoman's work during this 
extraordinary time, and we must do everything possible to 
support them in their efforts. Administrator Criswell will need 
to play catch-up to address all of these issues, as FEMA's 
mission was hampered by the prior administration's failure to 
listen to competent leadership, its politicization of disaster 
response, and its denial of the science on COVID and climate 
change.
    Under the Biden administration, things are already changing 
for the better. On February 2, President Biden announced that 
FEMA would provide 100 percent Federal funding for States and 
local governments for their COVID-19 response and vaccination 
efforts. Additionally, the Biden administration has provided 
funeral assistance to families who lost loved ones to the 
pandemic, mobilized mass vaccination efforts, and deployed 
mobile vaccination units to help serve hard-to-reach and 
underserved communities.
    The Biden administration is also investing in resilient 
critical infrastructure by providing $1 billion to communities 
through FEMA's pre-disaster Building Resilient Infrastructure 
and Communities Program, commonly called BRIC. With this 
funding, FEMA would also be able to help prepare communities 
for more frequent and damaging storms resulting from climate 
change. FEMA's budget requests full funding for the Non-profit 
Security Grant Program and Targeted Violence and Terrorism 
Prevention Program. These programs are essential to helping 
institutions at higher risk of targeted violence like State and 
local governments, higher education, and non-profits.
    That being said, Congress must restore the proposed $15.3 
million reduction in both the Urban Area Security Initiative, 
UASI, and the State Homeland Security Grant Program. Such a 
reduction could hinder our ability to effectively prepare for, 
respond to, recover from, and mitigate against all hazards. 
Today, FEMA faces historic challenges as it seeks to carry out 
its mission to support citizens and first responders as we 
prepare for, protect against, respond to, recover from, and 
mitigate all hazards. I look forward to hearing from 
Administrator Criswell about FEMA's readiness to meet its 
mission and what Congress can do to assist. I thank her for 
being here and the Members for their participation.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 29, 2021
    The committee is meeting today to discuss FEMA's readiness to meet 
its mission. We are pleased to be joined by Administrator Deanne 
Criswell, who was confirmed just 2 months ago. Administrator Criswell 
brings to the job a wealth of experience from her roles as New York 
City Emergency Management Commissioner, leader of one of FEMA's 
National Incident Management Assistance Teams, and over 2 decades of 
service as a firefighter in the Colorado Air National Guard. I would 
also note that she is the first woman to be confirmed by the Senate to 
lead FEMA, and I applaud the Biden administration for selecting highly-
qualified individuals who reflect the diversity of our great Nation.
    Administrator Criswell steps into the role at a critical juncture, 
as FEMA contends with on-going responses to previous disasters 
including western wildfires and 2017 hurricanes, while also continuing 
to manage the COVID response, the current disaster season, and other 
emergencies. For example, in Mississippi we have suffered terrible 
losses from recent flooding, and I know many other communities have 
dealt with similar disasters this spring and summer. Over the weekend 
we all watched in horror at the tragic building collapse in the Miami 
area. And last night, Tropical Storm Danny made landfall in South 
Carolina, amid what is predicted to be a busy hurricane season. FEMA is 
playing a key role in the response to all of these incidents.
    The agency also continues to contend with long-standing challenges 
like addressing a disaster assistance backlog, recruiting and retaining 
a qualified disaster workforce, and addressing incidents of harassment 
and discrimination and bolstering employee morale. The men and women of 
FEMA have been doing yeoman's work during this extraordinary time, and 
we must do everything possible to support them and their efforts.
    Administrator Criswell will need to play catch-up to address all of 
these issues, as FEMA's mission was hampered by the prior 
administration's failure to listen to competent leadership, its 
politicization of disaster response, and its denial of the science on 
COVID and climate change. Under the Biden administration, things are 
already changing for the better.
    On February 2, President Biden announced that FEMA would provide 
100 percent Federal funding for States and local governments for their 
COVID-19 response and vaccination efforts. Additionally, the Biden 
administration has provided funeral assistance to families who lost 
loved ones to the pandemic, mobilized mass vaccination efforts, and 
deployed mobile vaccination units to help serve hard-to-reach and 
underserved communities.
    The Biden administration is also investing in resilient critical 
infrastructure by providing $1 billion to communities through FEMA's 
Pre-Disaster Building Resilient Infrastructure and Communities (BRIC) 
program. With this funding, FEMA would be able to help prepare 
communities for more frequent and damaging storms resulting from 
climate change. FEMA's budget requests full funding for the Nonprofit 
Security Grant Program (NSGP) and Targeted Violence and Terrorism 
Prevention (TVTP) program. These programs are essential to helping 
institutions at higher risk of targeted violence, like State and local 
governments, higher education, and nonprofits.
    That being said, Congress must restore the proposed $15.3 million 
reduction to both the Urban Area Security Initiative (UASI) and the 
State Homeland Security Grant Program (SHSGP). Such a reduction could 
hinder our ability to effectively prepare for, respond to, recover 
from, and mitigate against all hazards.
    Today, FEMA faces historic challenges as it seeks to carry out its 
mission to support citizens and first responders as we prepare for, 
protect against, respond to, recover from, and mitigate all hazards.
    I look forward to hearing from Administrator Criswell about FEMA's 
readiness to meet its mission, and what Congress can do to assist.

    Chairman Thompson. With that, I recognize the Ranking 
Member, the gentleman from New York, Mr. Katko, for an opening 
statement.
    Mr. Katko. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. I want to welcome the witness, Ms. 
Criswell. I appreciate your time we spent last week together. I 
found it very helpful and very informative and I am confident 
we are going to have a good working relationship going forward.
    Before I start my opening, I want to just acknowledge the 
recent tragedy in Surfside, Florida. I know that Ms. Criswell 
recently returned from there and my thoughts and prayers go out 
to all those involved in the tragedy and those working the 
rescue operation, including FEMA.
    I would like congratulate Ms. Criswell on her confirmation. 
In a field that has traditionally been dominated by men, Ms. 
Criswell is the first woman to lead FEMA as a confirmed 
director or B. For an agency that was formed in 1979, I would 
say that is a long, long overdue achievement. Ms. Criswell, I 
congratulate you on being a trailblazer and thank you for being 
a role model for the thousands of women that are already in the 
field of emergency management, and for those that are thinking 
about a career in the field. I hope that you are the first of 
many.
    FEMA has had its hands full for the past several years. 
After having not been hit by a major hurricane in over a 
decade--Hurricane Wilma in 2005--2017 devastated the United 
States with 3 major hurricanes, Harvey, Irma, and Maria. It 
doesn't seem like things have slowed down since. In 2018, 
Hurricane Michael made landfall in the Florida panhandle, 
becoming the first Category 5 storm to hit the United States 
since Hurricane Andrew in 1992. Two-thousand nineteen also saw 
an above-average hurricane season with 18 named storms. And 
2020, although it was somewhat overshadowed by COVID-19, was 
the most active and the fifth-costliest Atlantic hurricane 
season on record. Not to mention record-breaking fire seasons 
over the past several years. In 2020 alone, more than 4 million 
acres were burned in the State of California.
    Then came COVID. On March 13, 2020, President Trump 
declared a Nation-wide emergency. Eventually every State, 
commonwealth, territory, and the District of Columbia received 
a major disaster declaration. That triggers FEMA, of course. 
During the pandemic, FEMA with the help of HHS and the private 
sector, coordinated the delivery of more than 600 million N95 
respirators, 2.5 billion surgical masks, 131 million face 
shields, 1.1 billion surgical gowns and coveralls, and more 
than 56 billion gloves to State, local, Tribal, and territory 
partners. Well done. Well done, indeed.
    Additionally, FEMA has distributed more than $80 billion in 
COVID relief and vaccine-related expenses. They have helped to 
support 2,100 community vaccination centers and assisted in the 
delivery of more than 371 million vaccines. I applaud the work 
of FEMA--all the work FEMA has done over the past several years 
and during the pandemic. These are certainly unprecedented 
times for our country and for FEMA.
    Despite the many successes of FEMA during 2020 and before, 
I think that FEMA is facing multiple challenges today and will 
in the years to come. With the many varying undertakings that 
FEMA has been given, including now a mission at the border, we 
must ensure that we have an adequately-staffed, well-trained, 
and forward-thinking FEMA that is not only prepared for 
hurricanes, but for whatever challenges lie ahead.
    So, think about it for a moment, if you will. It is the 
first time in FEMA's history that it had a Nation-wide 
emergency disaster declaration and that I am sure changed the 
matrix of things quite a bit for FEMA. I have concerns with 
FEMA's readiness as well as approach to dealing with State and 
local, territorial, and Tribal entities, and will highlight one 
of my experiences later in my opening statement. But first, I 
would like to note what I hope to hear in your testimony today, 
among other things, I would like to hear your vision for the 
following: How will you ensure that FEMA is adequately staffed 
for future disasters due to staff burnout and massive workload 
as I detailed earlier in my testimony? How will FEMA revamp the 
recovery process, which is outdated, frustrating for 
applicants, too bureaucratic, and simply takes too long? How 
does FEMA plan to view grants moving forward? Does FEMA think 
any changes should be made as we approach the 20th anniversary 
of 9/11? What role can FEMA grants play in shoring up the 
security of communities who have defunded law enforcement 
critical to the homeland security mission? How does FEMA view 
its role in future pandemics? Should FEMA be the lead or should 
FEMA play a support role? How does FEMA plan to modernize the 
Flood Insurance Program? What are the future plans for FEMA's 
BRIC Program? How will you ensure that this program is truly 
the transformational program that Congress envisioned?
    I am also interested in how FEMA will do more to work with 
small and rural communities. Not all of us represent large 
metropolitan areas and I have seen FEMA fall flat when it comes 
to working with smaller communities in central New York. I know 
that my experience is not unique. As I am sure you are aware, 
President Trump signed a major disaster declaration for 
multiple counties in New York due to flooding along Lake 
Ontario in 2017. Unfortunately, assistance for individuals was 
denied under this declaration. Similar flooding occurred in 
2019, and FEMA Administrator Gaynor visited the region with me 
to survey the devastating damage, which amounted to hundreds of 
millions of dollars of shoreline damage at a minimum.
    I disagree with the decision by FEMA on how these requests 
for assistance were handled. My constituents were left 
frustrated by the length of time it took for a decision and the 
overall lack of transparency in the process. Additionally, I 
take issue with the process of FEMA's preliminary damage 
assessments.
    To improve this process for my constituents and others, I 
introduced a bill that will improve the efficiency and 
consistency of the PDA process. My bill establishes an advisory 
panel of State and local emergency personnel from all 10 FEMA 
regions to work with FEMA to enhance the PDA process. In 2020, 
a previous version of this legislation was passed by the House 
of Representatives with overwhelming bipartisan support. Ms. 
Criswell, on behalf of my constituents, I would ask that you 
look at this legislation and provide any meaningful feedback 
that you think is helpful.
    FEMA plays an important role in the Department of Homeland 
Security. Indeed, it plays a critical role. It has a zero-fail 
mission. It needs to be able to respond to disasters at any 
hour of any day and across the entire United States from Puerto 
Rico to Samoa. Ms. Criswell, in my 2 hearings with the 
Secretary, I have told him that I want to be constructive 
Member of Congress, not just throw bombs without offering 
solutions. I would like to make the same offer to you and be 
forward-looking. I look forward to working with you and I know, 
based on my conversations with you already, we will be able to 
work together. I look forward to hearing your testimony today 
and your vision for FEMA. Now, I did have some criticisms, but, 
of course, there are many things about FEMA that are doing 
well.
    The last thing I want to say is, I want to salute the men 
and women of FEMA who have gone above and beyond the duty 
during this pandemic and have done yeoman's work to help us get 
through this pandemic. So, I salute all of them and I think on 
behalf of the entire committee, they will agree with me that 
they did a fantastic job. So, thank you, Mr. Chairman, and I 
yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you for holding his hearing today, Mr. Chairman. I want to 
welcome the witness, Ms. Criswell. I appreciate the time we spent last 
week together. I found it very helpful and very informative and I'm 
confident we're going to have a good working relationship going 
forward. Before I start my opening, I just want to acknowledge the 
recent tragedy in Surfside, Florida. I know that Ms. Criswell recently 
returned from there, and my thoughts and prayers go out to all those 
involved in the tragedy and those working the rescue operation, 
including FEMA.
    I would like to congratulate Ms. Criswell on her confirmation. In a 
field that has traditionally been dominated by men, Ms. Criswell is the 
first woman to lead FEMA as a confirmed director or administrator. For 
an agency that was formed in 1979, I would say that this is long 
overdue. Ms. Criswell, I congratulate you on being a trailblazer, and 
thank you for being a role model for the thousands of women that are 
already in the field of emergency management, and for those that are 
thinking about a career in the field. I hope that you are the first of 
many.
    FEMA has had its hands full for the past several years. After 
having not been hit by a major hurricane in over a decade (Hurricane 
Wilma in 2005), 2017 devastated the United States with three major 
hurricanes--Harvey, Irma, and Maria. It doesn't seem like things have 
slowed down since.
    In 2018, Hurricane Michael made landfall in the Florida panhandle, 
becoming the first category 5 storm to hit the United States since 
Hurricane Andrew in 1992. 2019 also saw an above-average hurricane 
season with 18 named storms, and 2020, although it was somewhat 
overshadowed by COVID-19, was the most active and the fifth-costliest 
Atlantic hurricane season on record. Not to mention record-breaking 
fire seasons over the past several years--in 2020 alone, more than 4 
million acres were burned in California.
    And then came COVID--on March 13, 2020, President Trump declared a 
Nation-wide emergency, and eventually every State, commonwealth, 
territory, and the District of Columbia received a major disaster 
declaration. During the pandemic, FEMA, with the help of HHS and the 
private sector coordinated the delivery of more than 600 million N95 
respirators, 2.5 billion surgical masks, 131 million face shields, 1.1 
billion surgical gowns/coveralls, and more than 56 billion gloves to 
State, local, Tribal, and territorial partners. Well done.
    Additionally, FEMA has distributed more than $80 billion dollars in 
COVID relief and vaccine-related expenses, helped to support 2,100 
community vaccination centers and assisted in the delivery of more than 
371 million vaccines.
    I applaud all the work FEMA has done over the past several years 
and during the pandemic. These are certainly unprecedented times.
    Despite the many successes of FEMA during 2020 and before, I think 
that FEMA is facing multiple challenges today, and will in the years to 
come.
    With the many varying undertakings that FEMA has been given, 
including now a mission at the border, we must ensure that we have an 
adequately staffed, well-trained, and forward-thinking FEMA that is not 
only prepared for hurricane season, but for whatever challenges lie 
ahead.
    And yet, I have concerns with FEMA's readiness as well as approach 
to dealing with State, local, territorial, and Tribal entities, and 
will highlight one of my experiences later in my opening statement. But 
first, I would like to note what I hope to hear in your testimony 
today. Among others, I would like to hear your vision for the 
following:
  <bullet> How will you ensure that FEMA is adequately staffed for 
        future disasters due to staff burnout and massive workload as I 
        detailed earlier in my testimony?
  <bullet> How will FEMA revamp the recovery process, which is 
        outdated, frustrating for applicants, too bureaucratic, and 
        simply takes too long?
  <bullet> How does FEMA plan to view grants moving forward--and does 
        FEMA think any changes should be made as we approach the 20th 
        anniversary of 9/11?
  <bullet> What role can FEMA grants play in shoring up the security of 
        communities who have defunded law enforcement critical to the 
        homeland security mission?
  <bullet> How does FEMA view its role in future pandemics--should FEMA 
        be the lead, or should FEMA play a support role?
  <bullet> How does FEMA plan to modernize the flood insurance program?
  <bullet> What are the future plans for FEMA's BRIC program, and how 
        will you ensure that this program is truly the transformational 
        program that Congress envisioned?
    I am also interested in how FEMA will do more to work with small 
and rural communities. Not all of us represent large metropolitan areas 
and I have seen FEMA fall flat when it comes to working with smaller 
communities in Central New York. I know that my experience is not 
unique.
    As I am sure you are aware, President Trump signed a major disaster 
declaration for multiple counties in New York due to flooding along 
Lake Ontario in 2017. Unfortunately, assistance for individuals was 
denied under this declaration. Similar flooding occurred in 2019, and 
FEMA Administrator Gaynor visited the region with me to survey the 
devastating damage.
    I disagree with the decision by FEMA and how these requests for 
assistance were handled. My constituents were left frustrated by the 
length of time it took for a decision, and the overall lack of 
transparency in the process.
    Additionally, I take issue with the process of FEMA's Preliminary 
Damage Assessments.
    To improve this process for my constituents and others, I 
introduced a bill that will improve the efficiency and consistency of 
the PDA process. My bill establishes an advisory panel of State and 
local emergency personnel from all 10 FEMA regions to work with FEMA to 
enhance the PDA process.
    In 2020, a previous version of this legislation was passed by the 
House of Representatives with overwhelming bipartisan support. Ms. 
Criswell, on behalf of my constituents, I would ask that you look at 
this legislation and provide any meaningful feedback.
    FEMA plays an important role in the Department of Homeland 
Security. FEMA has a zero-fail mission, needs to be able to respond to 
disasters at any hour of any day, and across the entire United States, 
from Puerto Rico to American Samoa. Ms. Criswell, in my two hearings 
with the Secretary, I have told him that I want to be a constructive 
Member of Congress and not just throw bombs without offering solutions. 
I would like to make that same offer to you and be forward-looking. I 
look forward to working with you, and look forward to hearing your 
testimony and vision for FEMA.
    Now I did have some criticisms, but of course there's many things 
about FEMA they're doing well. Last, I want to salute the men and women 
of FEMA who have gone above and beyond their duties during this 
pandemic and have done yeoman's work to help us get through this 
pandemic. I think the entire committee will agree with me that they did 
a fantastic job.
    Thank you, Mr. Chairman. I yield back.

    Chairman Thompson. Thank you very much. All the Members of 
the committee are reminded that under the committee rules, 
opening statements may be submitted for the record. Members are 
also reminded that the committee will operate according to the 
guidelines laid out by the Chairman and Ranking Member in our 
February 3 colloquy regarding remote proceedings.
    I welcome our witness and I am going to try to get your 
first name right. Deanne, Deanne.
    Ms. Criswell. Deanne.
    Chairman Thompson. Deanne Criswell, the administrator for 
the Federal Emergency Management Agency, who is making her 
first appearance before the committee today. Without objection, 
the administrator's full statement will be inserted in the 
record. I now ask Administrator Criswell to summarize her 
statement for 5 minutes.

    STATEMENT OF DEANNE B. CRISWELL, ADMINISTRATOR, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Ms. Criswell. Thank you, Chair Thompson, Ranking Member 
Katko, and Members of the committee. I am delighted to be 
appear before you today to discuss the President's budget 
request for FEMA in fiscal year 2022, and to describe how the 
President's vision guides my priorities for the agency.
    This past Sunday, I visited Surfside, Florida and the scene 
of the Champlain Towers collapse. It is difficult to put into 
words the devastation that this community is experiencing and 
our hearts go out to all the families and loved ones that have 
been impacted by this event.
    I am very grateful for the heroic efforts of the local 
first responders. Seen first-hand the around-the-clock rescue 
efforts and how the community has come together in their time 
of greatest need. FEMA is on the ground. We have a recovery 
center that is working directly with families and loved ones 
impacted by this tragic event to get them the assistance that 
they need. We will continue to bring resources to support the 
on-going response and recovery efforts.
    FEMA's mission of supporting people before, during, and 
after disasters has never been more critical. Our role 
supporting incidents such as the Champlain Towers collapse, our 
support of the COVID-19 pandemic response, and numerous other 
active disasters attests to the vital importance and 
responsibility of this agency to our Nation.
    Given FEMA's unprecedented mission requirements, the 
President's budget increases the FEMA budget to $28.4 billion, 
which is $1.9 billion more than the fiscal year 2021 enactment. 
The President's budget, if enacted, will allow FEMA to meet the 
challenges ahead.
    In my first months as FEMA administrator, I am focused on 3 
key priorities: Supporting the FEMA workforce and our 
readiness, integrating equity into everything we do, and 
addressing climate change through risk reduction. I will 
describe these priorities in turn.
    First, we must support the FEMA workforce and our 
readiness. To protect the well-being of our workforce and the 
communities we serve in the COVID-19 environment, we continue 
to rely on virtual operations where appropriate. We are 
evaluating how to enhance our operational capacity, promote an 
agile and expeditionary culture, and support the safe return to 
the office. Workforce readiness begins with the right staffing 
levels. The fiscal year 2022 budget supports increased hiring 
and among other things, would result in a 14 percent increase 
in the number of our Stafford Act employees.
    Readiness also means ensuring the workforce has the 
training, tools, and resources they need to do their job. I am 
committed to providing that to the workforce. Next, we must 
integrate equity into everything we do. The Nation deserves to 
have our programs and services delivered fairly and equitably. 
To meet this expectation, diversity, equity, and inclusion must 
be core components of how we conduct ourselves and execute our 
mission. FEMA is currently soliciting feedback from the public 
and our partners to ensure we understand how our programs 
impact survivors of different demographics and where needed, we 
are committed to making changes. This includes changes to our 
policies, procedures, and how we deploy and execute our 
mission.
    Internally, this means building a diverse and inclusive 
workforce which resembles the communities we serve. Externally, 
it means we must proactively identify and reach out to 
underserved communities and populations most in need of our 
help. We are analyzing our operational programs through the 
lens of equity and we are doing that for a reason. We know that 
disasters exasperate existing inequalities. We need to ensure 
FEMA assistance reaches everyone who needs it. We must also 
identify the root causes of differing recovery outcomes for 
survivors and work aggressively and collectively to ensure 
access for all to disaster response and recovery assistance.
    FEMA's commitment to equity is evident in our efforts to 
advance the accessibility of the COVID-19 vaccine. At the 
President's direction, FEMA coordinated with Federal, State, 
local, Tribal, and territorial partners to support the 
establishment and expansion of over 2,100 community vaccination 
centers. This included 39 Federally-led CVC pilot sites and the 
deployment of 18 mobile vaccination units to help reach 
traditionally underserved populations. Nearly 60 percent of all 
doses administered at these Federally-led sites, went to 
communities of color. As we execute our response to COVID-19 
and other disasters, FEMA will continue to prioritize equity 
across all of our operations.
    Finally, we must address climate change through risk 
reduction. As emergency managers, we must face the challenges 
that climate change poses to our mission head-on and make 
generational-level investments to reduce the impacts. 
Developing resilient communities ahead of an incident reduces 
both the loss of life and economic disruption. Every dollar 
invested in mitigation saves the American taxpayer $6 in future 
spending. To provide local partners with the financial support 
for mitigation projects, FEMA is expanding resources and 
technical assistance for the Building Resilient Infrastructure 
and Communities Program, which establishes a reliable stream of 
funding for larger mitigation projects through a Nation-wide 
grant program. Recently, the President visited FEMA and 
announced that he was doubling the funding available for the 
BRIC Program to $1 billion for the fiscal year 2021 
application.
    Mitigating the increasing flood risk is particularly 
important as flooding is the most common and costly natural 
disaster in the United States. Among other initiatives, the 
President's fiscal year 2022 budget requests more than $428 
million for the Flood Hazard Mapping and Risk Analysis Program 
to allow for climate change data to be incorporated into flood 
risk analysis. FEMA is also working to ensure that communities 
are protected financially from flooding. FEMA is updating the 
National Food Insurance Program pricing methodology to fix 
long-standing inequities by more closely aligning insurance 
premiums to the specific flood risk of each home. The fiscal 
year 2022 budget also includes a means-tested affordability 
proposal to ensure that everyone who needs flood insurance can 
afford it.
    In conclusion, the COVID-19 pandemic is an important 
turning point for our country and challenges us to rethink our 
systems, decisions, and investments. This past year has not 
been easy and I would like to recognize the professionalism and 
perseverance demonstrated by the FEMA workforce. I look forward 
to working with the Members of this committee as we build a 
more ready and resilient Nation. I am happy to answer any 
questions.
    [The prepared statement of Ms. Criswell follows:]
                Prepared Statement of Deanne B. Criswell
                             June 29, 2021
    Chair Thompson, Ranking Member Katko, and Members of the committee. 
My name is Deanne Criswell, and I am the administrator of the Federal 
Emergency Management Agency (FEMA). I am delighted to appear before you 
to discuss the President's budget request for FEMA in fiscal year 2022, 
and to describe how the President's vision guides my priorities for 
FEMA as the agency's new administrator.
    FEMA's mission of supporting people before, during, and after 
disasters has never been more critical. Our role during the response to 
the COVID-19 pandemic, as well as the numerous other disasters we are 
actively supporting, attests to the vital importance and responsibility 
of this agency to our Nation. Given FEMA's unprecedented mission 
requirements, the President's budget increases the overall FEMA budget 
to $28.4 billion, which is $1.9 billion more than the fiscal year 2021 
enactment. I believe that the President's budget, if enacted, will put 
FEMA on sound footing to meet the challenges ahead.
    Climate change is making natural disasters more frequent, more 
intense, and more destructive, and we must be prepared for another 
challenging series of disaster events this summer and fall. Last year, 
FEMA faced record-setting hurricane and wildfire seasons. Response and 
recovery operations from many of these past disasters continue even as 
FEMA pivots to prepare for what lies ahead. The fiscal year 2022 
President's budget would increase the major disaster allocation in the 
Disaster Relief Fund (DRF) from $17.1 billion to $18.8 billion to 
address on-going Stafford Act disasters. This includes $9.3 billion for 
COVID-19; $4.1 billion for Hurricanes Harvey, Irma, and Maria; $2.2 
billion for non-catastrophic disasters; $1.2 billion for catastrophic 
disasters; and $2.0 billion in reserve in anticipation of additional 
COVID-19 costs.
    In my first months as the FEMA administrator, I am focused on three 
key priorities, which are guided by the President's vision: (1) 
Supporting the FEMA workforce and our readiness; (2) integrating equity 
into everything we do, and (3) addressing climate change through risk 
reduction. In today's testimony, I will describe these priorities in 
turn.
    Supporting the FEMA workforce and our readiness.--FEMA's workforce 
of more than 21,700 emergency managers does exceptional work every day 
to deliver our mission and as FEMA's administrator, their readiness and 
well-being is my first priority.
    Prioritizing the health and safety of FEMA's workforce enables us 
to best ensure that our personnel are ready to deploy or re-deploy to 
any disaster at a moment's notice. FEMA will continue to take all 
necessary measures to prioritize workforce health and safety within the 
COVID-19 environment. FEMA's workforce became eligible for the COVID-19 
vaccine through the Department of Homeland Security's Operation 
Vaccinate our Workforce, which was launched in late January. Where 
appropriate, we continue to rely on virtual operations and inspections, 
as well as no-contact service methods, to protect both our workforce 
and the communities they serve. As we prepare for a post-COVID-19 
environment, we are evaluating how to enhance operational capacity, and 
promote an agile and expeditionary culture, while we support remote 
work where appropriate and return to the workplace safely.
    Workforce readiness means that our people are ready to respond. 
This starts with having the right staffing levels. The fiscal year 2022 
budget supports increased hiring, and among other things would result 
in a 14 percent increase in the number of FEMA's Stafford Act 
employees.
    Readiness also means the workforce has the training, tools, and 
resources they need to do their job, and I am committed to providing 
them. For instance, FEMA's Incident Management (IM) workforce is 
currently comprised of nearly 11,000 personnel. The fiscal year 2022 
budget includes $32.3 million to not only recruit additional staff for 
the Incident Management Workforce, but to also train and equip them.
    As we enter the 2021 hurricane and wildfire seasons and continue to 
prepare for no-notice events, our workforce has never been more 
experienced or tested. However, I recognize that many of our staff have 
been activated in support of COVID-19 response operations and numerous 
other disaster declarations for over a year, and we will ensure that 
our deployed workforce gets the rest and training to be ready for what 
comes next.
    Longer term, we also need to continue to professionalize the field 
of emergency management by better defining what it means to be an 
emergency manager and building career paths for the Nation's emergency 
management workforce.
    Integrating equity into everything we do.--The Nation deserves to 
have our programs and services delivered fairly and equitably. To meet 
this expectation, diversity, equity, and inclusion are not optional and 
must be core components of how we conduct ourselves and execute our 
mission. They are not empty buzzwords. FEMA is actively working to meet 
this expectation and reduce unnecessary barriers to program 
participation for disaster survivors, grant recipients, and other key 
stakeholders. That includes low-income households and other 
traditionally vulnerable populations. We know we have work to do and we 
are committed to doing it. FEMA is currently soliciting feedback from 
the public and our partners to ensure we understand how our programs 
impact survivors of different demographics, and we are committed to 
making changes where needed. This includes changes to our policies, 
procedures, or how we deploy and execute our mission.
    Internally, this means understanding that to help individuals we 
must create safe and welcoming environments and that we do this by 
building a diverse and inclusive workforce which resembles the 
communities we serve. Externally, it means we cannot be satisfied only 
with assisting those who seek us out--we must also proactively identify 
and reach out to underserved communities and populations most in need 
of our help. We are analyzing our operational programs through the lens 
of equity for a reason. We know that disasters exacerbate existing 
inequalities, and we need to ensure that FEMA assistance reaches 
everyone who needs it. We must also come together across all disaster 
recovery stakeholders to identify the root causes of differing recovery 
outcomes for survivors and work aggressively and collectively to ensure 
equity in disaster response and recovery.
    FEMA's commitment to equity is further evident in our efforts to 
advance the accessibility of COVID-19 vaccines. At the President's 
direction, FEMA coordinated with Federal and State, local, Tribal, and 
territorial (SLTT) partners to support the establishment and expansion 
of over 2,100 Community Vaccination Centers (CVCs) to achieve the 
administration's goal of administering 200 million shots in 100 days. 
This included 39 Federally-led CVC pilot sites and the deployment of 18 
mobile vaccination units to help reach traditionally underserved and 
more remote communities. As part of these efforts, FEMA established a 
Civil Rights Advisory Group (CRAG) in January with our Federal partners 
to support the administration's priority of making equity a cornerstone 
of the COVID-19 response. The CRAG supported the development of the 
methodology used to determine Federally-led CVC pilot site selections 
and has worked in all 10 FEMA regions to collect and analyze 
demographic data, identify underserved communities, and collaborate 
with community-based organizations. Nearly 60 percent of all doses 
administered at Federally-led pilot CVCs went to communities of color, 
and interpretation services have been provided to non-English speakers 
in over 180 languages.
    As we execute our response to COVID-19 and other disasters, FEMA 
will continue to prioritize equity across all operations, both 
internally and externally. In support of this priority, the fiscal year 
2022 President's budget includes an additional 54 employees at 
Headquarters and in the Regions, who will focus on equity issues. Among 
other things, these staff will analyze the extent to which FEMA is 
delivering programs and services fairly and equitably, as well as make 
data-informed recommendations for how FEMA can improve the delivery of 
its programs and services Nation-wide.
    Addressing climate change through risk reduction.--As emergency 
managers, we must face the challenges that climate change poses to our 
mission head-on and make generational-level investments to reduce the 
impacts we are experiencing as a result. Disasters are more frequent 
and more costly. While we will always be ready to respond when 
disasters occur, we recognize that true success rests in mitigating the 
worst impacts of disasters before they occur. As a former firefighter 
in Colorado, I understand the impact mitigation has. Developing 
resilient communities ahead of an incident reduces both the loss of 
life and economic disruption, and, according to an independent study by 
the National Institute of Building Sciences in 2019, every dollar in 
Federal hazard mitigation grants invested in mitigation is estimated to 
save the American taxpayer $6 in future spending.
    To provide local partners with financial support for mitigation 
projects, FEMA will expand the Building Resilient Infrastructure and 
Communities (BRIC) program. I would like to thank Congress for 
providing the legislative tools to create BRIC, per Section 1234 of the 
Disaster Recovery Reform Act of 2018 (DRRA). By establishing a reliable 
stream of funding for larger mitigation projects through a Nation-wide 
grant program, the BRIC program provides a critical opportunity for 
governments to invest in a more resilient Nation, reduce disaster 
suffering, and avoid future disaster costs. Recently, the President 
visited FEMA to announce that he was increasing the funding available 
for the BRIC program to $1 billion for the fiscal year 2021 Notice of 
Funding Opportunity (NOFO) application period. FEMA will set funding 
levels for the fiscal year 2022 BRIC program consistent with the 
President's priorities.
    Mitigating the increasing risk of flooding will be an important 
component of FEMA's efforts to increase our Nation's resilience to 
climate change. As millions of American families have unfortunately 
experienced first-hand, flooding is the most common and costly natural 
disaster in the United States. Furthermore, direct average annual flood 
losses have quadrupled from approximately $4 billion per year in the 
1980's to roughly $17 billion per year between 2010 and 2018. Over the 
past decade, flooding and coastal storms have accounted for roughly 70 
percent of all Presidential Disaster Declarations.
    We must drive the kind of system-based mitigation this Nation needs 
to make our communities more resilient to flooding. The President's 
fiscal year 2022 budget requests more than $428 million for the Flood 
Hazard Mapping and Risk Analysis Program (Risk MAP) to allow for 
climate change data to be incorporated into flood risk analysis. The 
fiscal year 2022 budget also requests $5 million to help other Federal 
agencies put flood resilience measures into effect. A further $5 
million is requested in fiscal year 2022 for climate research and 
nature-based solutions, to provide funding for actionable climate 
research that can be used by SLTT partners to design and build 
innovative mitigation projects which address the impacts of climate 
change. By investing in mitigation, our Federal and SLTT partners will 
be better prepared for future extreme weather events and be able to 
recover faster at the individual and community level.
    FEMA is also working to ensure that communities are protected 
financially as well as physically from flooding. Flood insurance 
policies through the National Flood Insurance Program (NFIP) can help 
households fill a financial void when a disaster occurs and better 
rebuild their lives in its aftermath. For the first time in nearly 50 
years, FEMA will update the NFIP pricing methodology to communicate 
flood risk more clearly so households can make more informed decisions 
on risk, insurance, and mitigation actions to protect against the 
perils of flooding and climate change. These changes will also fix 
long-standing inequities in flood insurance pricing by more closely 
aligning insurance premiums to the specific flood risk of each home. 
The fiscal year 2022 budget also proposes a means-tested affordability 
proposal.
                               conclusion
    The COVID-19 pandemic has represented an important turning point 
for our country, and challenges us to rethink our systems, decisions, 
and investments. This past year has not been easy, and I would like to 
recognize the professionalism, resilience, and perseverance 
demonstrated by the FEMA workforce and our partners. As we look to the 
challenges ahead, I look forward to working with the Members of this 
committee as we build a more ready and resilient Nation. Thank you for 
this opportunity to testify. I am happy to answer any questions.

    Chairman Thompson. I thank the administrator for her 
testimony. I will remind each Member that he or she will have 5 
minutes to question the witness. I will now recognize myself 
for questions.
    Madam Administrator, you talked about the workforce and 
what you are looking to do to enhance it. Obviously, you have a 
number of working disasters on-going right now. Can you just 
explain to the committee what things you are doing to address 
worker exhaustion and other things that come with being 
overtaxed in disasters?
    Ms. Criswell. Chair Thompson, our FEMA workforce are some 
of the best public servants that I believe the U.S. Government 
has and they have been working tirelessly over the last several 
years in supporting multiple events going back to the 
hurricanes of Harvey, Irma, and Maria in 2017. What we are 
seeing is that we no longer have a cycle of--normal seasonal 
cycle. Our ops tempo, our operational tempo is really 
consistent around the year. So, the things that we are doing to 
address that right now is we are encouraging everybody to make 
sure that they are taking time for themselves right now, 
demobilizing staff from some of the current operations 
supporting COVID-19 and other long-standing recovery disasters 
so we can make sure that they are ready for the peak of 
hurricane season and what is expected to also be a very busy 
wildfire season.
    This rotation of readiness to make sure that our staff have 
the time to take for themselves and reset is a critical part of 
how we make sure that they are prepared and that we have a 
workforce that is ready to respond when needed.
    Chairman Thompson. Thank you very much. The Ranking Member 
alluded to some experiences he had in his area, and I talked 
about one I am currently undergoing in my district in 
Mississippi. That part of my district, primarily rural, low- to 
medium-income individuals. Have you looked at FEMA's structure 
for declaring and approving natural disasters and weighed it 
based on the population and income of the area? What happens is 
if a high-income area gets hit, the disaster is covered. But a 
sparsely-populated rural working-class community that is 
devastated, somehow doesn't meet the criteria, the dollar 
amount. Have you looked at that as to what we can do to make 
sure that those people are not being left out because of their 
current economic conditions?
    Ms. Criswell. You know, I have seen first-hand the 
disproportionate impact that our communities experience and our 
underserved communities across this country where they struggle 
day to day struggle even more exponentially when a disaster 
does strike. You know, one of the things that we did during 
COVID-19 for the first time was take social vulnerability 
index, social vulnerability data into our decision making for 
how we are going to anticipate or provide assistance. I have 
directed my team to continue this process in how do we now take 
this equity data that is out there into the decision-making 
process that we use for future disasters? That is something 
that we are working right now to figure out how we can 
institutionalize that so we can really understand the needs of 
the community as we are making our assessments.
    Chairman Thompson. I appreciate it. As soon as you can push 
that information down to State and local so that they 
understand it too, because they are still operating on the 
current thinking and not the new way of thinking for addressing 
disasters. I think it would be very helpful.
    Ms. Criswell. Yes, sir. Again, our team and our regional 
administrators work very closely with our State directors. As 
we continue to mature this process of including this equity 
data into our analysis, we will make sure that we are getting 
that information out to our stakeholders and our customers.
    Chairman Thompson. All right. I have a couple of other 
questions I will follow up after the hearing with you. The 
Chair recognizes the Ranking Member for questions.
    Mr. Katko. Thank you, Mr. Chairman. Thanks for asking that 
question. I just want to follow up with that and illustrate a 
few examples to help you understand the gravity of the problem. 
I have a small town called Moravia, New York in my district, 
and it is at the bottom. It is kind-of surrounded by hills. 
They had a horrendous rain over a long period of time, 8 or 9 
inches in a relatively brief period of time, and literally 
destroyed a good section of the town and destroyed their sewer 
systems and there are dikes on the roads and everything. It 
didn't qualify for disaster relief despite the fact that to 
repair everything it would cost many times more than the town's 
annual budget. So, that is what I think Mr. Thompson's talking 
about.
    Another example, Lake Ontario. They have had 2 catastrophic 
floods in the last 4 years. I think you know this because you 
were a regional administrator up there. Those catastrophic 
floods caused hundreds of millions of damage to lakefront 
properties and lakefront communities, yet, it didn't qualify 
for a disaster declaration. So, I would very much like to spend 
more time on this perhaps in another setting with the Chairman, 
and maybe you can sit down with us because this is a very 
serious problem. You know, obviously the big communities, 
expensive communities, the beachfront communities, when a 
hurricane hits, obviously that is a disaster. But when it 
happens to these small towns from an economic standpoint, the 
disasters are stunning and they can't recover from them. So, I 
really would like to talk some more about that going forward 
because I think FEMA should have some flexibility with respect 
to that.
    Ms. Criswell. Ranking Member Katko, we really have an 
opportunity right now, you know, as we have learned so much in 
our response to COVID-19 and seeing the impacts that our 
underserved communities have. We do have an opportunity right 
now to reflect on that see what we can do to incorporate better 
assessment methodologies into the way we determine disasters 
going forward. So, I would appreciate the opportunity to 
continue to have that discussion. I recognize that from my time 
in Colorado as well where these rural communities have a harder 
time meeting thresholds. So, I am happy to continue that 
conversation and learn from what we have experienced over the 
last few years.
    Mr. Katko. Yeah, let's do that and let us know if it is 
something that can be done through your internal rulemaking or 
just internal procedures or whether it is something that needs 
a legislative fix. Because if it is a legislative fix, I am 
sure Mr. Thompson and I can craft something together. So, thank 
you.
    I am going to switch gears for a bit and talk about, you 
know, this Nation-wide disaster declaration. Because now that 
it has happened, I think it is going to happen again, right, at 
some point. You know, when they start using FEMA for stuff like 
this, they may use it again more. So, I think it is really 
important that the initial assessment report that was done in 
September 2020 about COVID, has it been updated? If it hasn't, 
I think it is really important that it should be. So, can you 
tell me if the initial assessment report from September 2020 
about COVID-19 has been updated at all or do you plan to update 
it?
    Ms. Criswell. So, FEMA did an initial assessment report 
prior to me getting here that really started to capture what I 
would call, you know, the initial lessons learned from our 
response. We are undergoing a more thorough assessment of the 
overall response as far as FEMA's role is concerned. So, we 
will be releasing something when that is completed.
    Mr. Katko. Do you have an idea what a time line is for 
that?
    Ms. Criswell. I do not have a time line for that, but I am 
happy to get back to you with where we are at in the progress.
    Mr. Katko. I think it is going to be important because it 
was a sea change in how FEMA was implemented Nation-wide and I 
want to make sure that we are giving you the resources and the 
tools you need. We can't have that unless we see a candid 
internal assessment and I hope that is what we see.
    So, last in a hearing with this committee on the COVID-19 
pandemic in February, one of the witnesses was from my county, 
Onondaga County Executive Brian McMahon. He testified to the 
struggles that many officials faced. He specifically testified 
to the challenge that he faced given the fact that resource 
allocations pursuant to the disaster declaration in many cases 
are dictated by the State. New York State was kind-of like the 
Governor's office called all the shots. I think a 
disproportionate share went to some communities. Again, to 
reinforce Mr. Thompson's point, rural communities and up-State 
communities that were less affluent really struggled to get a 
proportionate share of the FEMA resources, the vaccinations, 
the personal protective equipment, and what have you. So, I 
don't know if you experience that elsewhere, but can FEMA 
engage more with local officials? How can FEMA engage more with 
local officials on the front lines for future crises? I would 
ask you maybe take that into consideration when you are doing 
your assessment report because some States did a very good job 
of proportionally handing out things. Other States were just 
left to their devices and Governors and politics. The 
distribution was not proportional. So, if you could maybe 
comment on that if you comment. If not, take a look at that in 
your initial assessment report follow-up?
    Ms. Criswell. Yes. I have been a local emergency manager in 
New York City as well as in a Aurora, Colorado. You know, I 
understand the struggles of working through the State to obtain 
FEMA assistance. So, I appreciate your comment and understand 
your concerns. As we continue our process of evaluating how we 
deliver programs we will certainly take that into 
consideration.
    Mr. Katko. I would appreciate that. Thank you very much. I 
yield back, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair now recognizes 
other Members for questions they may wish to ask the witness. I 
will recognize Members in order of seniority, alternating 
between Majority and Minority. Members are reminded to unmute 
themselves when recognized for questioning and to then mute 
themselves once they have finished speaking, and to leave their 
cameras on so they are visible to the Chair. The Chair 
recognizes for 5 minutes the gentlewoman from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chair. Good 
morning to our new administrator and congratulations for the 
historic moment that we find ourselves in with you as leading 
one of the most outstanding emergency disaster organizations in 
the world. I am delighted to have the opportunity to work with 
you having served on the Homeland Security Committee since 9/11 
and having a great respect for the men and women of FEMA.
    Before I start, let me offer my deepest sympathy and 
concern to our friends and neighbors in Surfside, Florida in 
the Miami-Dade area. Thank you for being present in that area. 
Obviously, the Members of Congress from that area will also be 
raising areas of concern. But we certainly hope FEMA is at its 
maximum in helping that community.
    FEMA's responsibility is to prepare for, prevent, respond, 
and recover from disasters with a vision of a Nation prepared. 
As you well know, I live in the Gulf, and I have experienced my 
neighbors with Katrina taking a quarter of a million people 
from Louisiana into Texas, and as well, Hurricane Harvey. My 
first question would be about how much would the fiscal year 
2022 budget's 14 percent increase in the number of FEMA's 
Stafford Act employees close the gap between the agency's 
workforce and the employees the Agency needs in order to 
competently meet the challenges ahead?
    Ms. Criswell. Thank you for that question. You know, the 14 
percent increase is going to begin to close the gap. What we 
are doing right now is really assessing what is the FEMA that 
the Nation needs and deserves? Then trying to determine, you 
know, what would that structure look like to support that? You 
know, as I mentioned earlier, we are seeing a year-round cycle 
of disasters and the tempo that we are deploying to is much 
more consistent. So, I have directed my team to conduct this 
assessment so we can evaluate, you know, what is the 
appropriate level of staffing to make sure that we can meet 
these incidents that are now happening much more frequently?
    Ms. Jackson Lee. Thank you for that. Let me acknowledge the 
region that I am in, Region 6, and the leadership that is 
there. I appreciate Tony. I appreciate your leadership in 
headquarters and Jason Nelson who have been consistent and a 
very wonderful liaison to all of us.
    I want to ask the question. Will State and local 
governments that have a history of dealing with climate 
emergencies and are projected to continue to experience the 
brunt of climate change impact be prioritized for competitive 
grants? As we lost 151 people in the freeze, I would be 
interested in that.
    I just want to give my last two questions. I would like you 
to comment on the work that FEMA is doing with the 
unaccompanied children that are at the border since I know that 
we were engaged with them and some of the issues of site 
selection. Then I would like to have the response, a 2019 
University of Colorado report found that in wake of Hurricane 
Harvey, homeowners who lived on blocks with the greatest share 
of non-White residents as well as lower incomes and credit 
scores had a lower chance of getting approved for FEMA grants. 
Many of those are my constituents. They still are desperate 
with blue tarps. I just recently visited Louisiana in their 
storms. So, I would be interested in the answers to those 
questions as quickly as possible. I look forward to following 
up with you.
    Ms. Criswell. Yes, ma'am. In response to the competitive 
nature of the grants. We have such an opportunity right now to 
invest in the reduction of risks that we are starting to see 
from climate change. One of the parts of our grant process is 
to be able to discuss the risks that communities face. So, that 
is part of the consideration for the competitive grant process. 
But incredibly important that we work with our communities to 
help them understand what their risks are so they can 
communicate that when they do apply for assistance or for the 
grants. I mean, we are doing targeted technical assistance to 
help with that and make sure communities can think bigger about 
how they can improve and reduce the impacts that they are 
facing.
    On the unaccompanied children, FEMA's role is to 
coordinate. Our specialty and our expertise is to coordinate 
across the Federal Government and bring appropriate 
stakeholders together and that is what we were asked to do in 
support of that mission for HHS. We currently have less than 7 
people on the ground supporting that mission. Our role was 
really designed to give additional assistance to HHS as they 
were standing up their operation. We have scaled back 
appropriately as they were able to take on some of that 
responsibility.
    Ms. Jackson Lee. Then what about not getting fair 
distribution for poor neighborhoods?
    Ms. Criswell. Oh, yes, ma'am. Again, as I talked about 
earlier, you know, our underserved communities across the 
country when they get hit by a disaster it is even more 
devastating for them. One of the things that I have realized 
through my time both at the local level and then coming back to 
FEMA is that I believe one of the problems is ensuring people 
have equal access to our programs as well. That they understand 
how to get the assistance that they need. So, I have directed 
my team here to look at some of the barriers to the access so 
we can make sure that individuals that are eligible for 
assistance get all of the assistance that they are eligible 
for. The fact that it takes them longer or they don't 
understand the process is not OK. We need to make sure that we 
are bringing our services to the communities and helping them 
get the assistance that they need.
    Ms. Jackson Lee. Thank you. I want to specifically work 
with you on that. Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Louisiana for 5 minutes, Mr. Higgins.
    Mr. Higgins. I thank the Chairman and the Ranking Member 
for holding this hearing, and to Administrator Criswell for 
being here today. After a year of devastating natural 
disasters, southwest Louisiana, I am honored to represent, 
continues to face dire recovery needs. Almost a year after 
Hurricane Laura's landfall, my constituents are still deep in 
the rebuilding process and facing new uncertainty as another 
hurricane season has already begun.
    The Federal Government is largely responsible for that 
uncertainty. Let me explain. Louisiana's Governor issued a 
formal request to the Biden administration in January for 
supplemental disaster relief. My office has pushed this request 
in every way through every channel. However, President Biden 
and Speaker Pelosi respectfully have been somewhat of an 
obstacle to the swift approval of supplemental disaster funding 
for Louisiana. The Speaker's office took some responsibility 
for this delay recently in a media interview stating that the 
Democratic Congress and the Biden administration are going to 
``consider the need for supplemental disaster funding for 
Louisiana.''
    May I say that we are beyond the time for consideration. It 
has been 10 months. President Biden visited Lake Charles and we 
thank him for that. He was not there to survey damages, but it 
would have been impossible to miss those damages. We have 
repeatedly communicated Louisiana's extreme needs to the Biden 
White House and to Madam Speaker Pelosi. Yet, no effort from 
Democratic leadership has been made to move forward with the 
supplemental disaster bill. Mr. Chairman, I ask unanimous 
consent to submit for the record, several letters from 
stakeholders in southwest Louisiana and the Lake Charles area, 
the city of Lake Charles, McNeese State University, New Orleans 
International Airport, West Calcasieu Airport, and others. I 
ask unanimous consent.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]
              Letters Submitted by Honorable Clay Higgins
          letter from southland field--west calcasieu airport
                                     June 17, 2021.
Rep. Clay Higgins,
LA-03, Lake Charles, LA 70601.
RE: West Calcasieu Parish Airport (Southland Field Airport), Tim 
LaFleur, Manager, 7000 Southland Field Rd. Sulphur, LA 70665.

    Dear Representative Higgins: As you well know, we along with others 
in the southwest Louisiana area were devastated by Hurricane Laura in 
2020. Our damages were so severe we had to ask FEMA to assist us in 
rebuilding our airport. To date we have worked tirelessly to get and 
keep our airport running. The FEMA process is so taxing we hired a 
consultant company (CSRS) to assist with the process. They too have 
worked tirelessly to submit the necessary and required paperwork to our 
FEMA representative, Timothy Bolt. This process has been futile. We 
have not received any funding because none of the required forms filed 
have been forwarded to the appropriate offices. Our last conference 
call on Tuesday, 06/15/2021, was so bad. Timothy Bolt was rude and 
talked very bad about the paperwork we submitted and was very 
disrespectful to one of the CSRS representatives. Finally, Ms. Darla 
Dickerson (FEMA) joined the conference call and explained some of the 
process to us. We are very disappointed in the FEMA representatives and 
are disappointed in the process. We have several project numbers that 
FEMA has assigned, and I will list them below.
    These are the project numbers and a description of what they 
entail.
    Project 158828--Debris Removal.--We have had debris removed from 
the airport and the 3 large hangars that were destroyed removed.
    Project 158830--Generator Costs.--We worked on generators for 
approximately 2 months and personnel had to be paid to fuel and service 
the generators.
    Project 158887--Temporary Facility No. 1 & Generator.--Our main 
terminal office building was destroyed, and we had a temporary building 
brought in for us to operate out of. We had no power and had to operate 
from generator till Entergy could run permanent power. We will be using 
the temporary building till the new terminal is built.
    Project 184707--Temporary Facility No. 2.--Our terminal was 
approximately 6,000 square feet. The first building we leased is 
approximately 600 square feet. We need additional room to operate out 
of.
    Project 185529--Airport Lights Generator.--The storm destroyed the 
lighting power grid. The airport has a back-up generator for the runway 
lighting. The generator ran till the main power grid came back on-line.
    Project 182668--Airport Road.--Flying debris hit the road and 
damaged it.
    Project 158833--Hangar A.--This hangar was a 12,000-square-foot 
hangar that was destroyed.
    Project 170055--Hangar B.--This hangar was approximately 6,500-
square-foot hangar and was destroyed.
    Project 170056--Hangar C.--This hangar was a 12,000-square-foot 
hangar that was destroyed.
    Project 158836--Electrical Vault Building.--The roof was ripped off 
this building and it houses numerous electrical components that power 
the runway lighting. We had this repaired as an emergency.
    Project 158835--T-Hangars E, F, H, I, and maintenance barn.--All 
the T-hangars sustained damage and are currently occupied by tenants. 
The rent has been reduced to the damaged hangars, which is costing the 
airport income.
    Project 158837--Contents and Equipment.--Due to the severity of the 
damage, the airport lost almost all the contents of the terminal 
building and main hangars.
    Project 158832-Terminal.--This is the main building that the main 
offices of the airport operate from. We are currently using small 
temporary trailers.
    Project 158838--Runway Lighting.--We lost numerous lighting 
equipment from flying debris. This has all been replaced or repaired.
    Project 158862--Airport Fencing.--Over 8,000 feet of fencing has 
been destroyed because of the hurricane. This posses a security issue 
and a wildlife management problem. Our main entry gate was an 
electronic pass gate, since the storm, we had to remove the chain and 
it is not locked. The person entering the airport must open the gate 
then latch it back in place each time. Other areas of the airport have 
no fencing at all, we had to stack items in the way to keep people from 
just driving onto the airfield.
    Thank you for your concern and if you need any additional 
information, please feel free to contact me.
                                               Tim LaFleur,
                          Airport Manager, Southland Field Airport.
                                 ______
                                 
              letter from chennault international airport
                                    April 16, 2021.

<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="491b010867012c2539092528672e263f">[email&#160;protected]</a>, State of Louisiana, Governor's Office of Homeland 
        Security and Emergency Preparedness.
RE: Late Entry for Public Assistance

    To whom it may concern: Chennault International Airport Authority 
has just been informed that our insurance carrier is separating damages 
from Hurricane Laura over to Hurricane Delta. We originally thought 
additional drying in after Hurricane Delta would be charged to 
Hurricane Laura.
    Chennault is requesting permission to submit a late entry for 
Public Assistance for Hurricane Delta due to the changes with our 
insurance carrier. Your assistance with this matter will be greatly 
appreciated.
            Respectfully,
                                           W. Kevin Melton,
                                                Executive Director.
cc: Jeanne Savoy, Applicant Liaison.
Loretta Hanks, CIAA.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
                  letter from the city of lake charles
                                     June 17, 2021.

    Director Criswell: The city of Lake Charles asks for your 
consideration of the following:
    1. 90 days (instead of 30 days) at 100 percent.--Category A 
        (Debris) and B (Emergency Protective Measures) for the city of 
        Lake Charles
    Southwest Louisiana has experienced four disasters in 9 months, 
        five in 12 months if you include COVID-19. The unusual series 
        of events has had an extraordinary financial impact that would 
        be lessened by a decision to extend the 100 percent 
        reimbursement period to a full 90 days. The city will incur 
        over $140 million in Category A & B costs and is faced with at 
        least $12 million in local match costs. The current approval 
        periods are as follows for the State:
    <bullet> Category B: continuous 30-day period of Aug 28, 2020-Sept 
            26, 2020.
    <bullet> Category A: continuous 30-day period of Oct 14, 2020-Nov 
            12, 2020.
    Lake Charles respectfully requests Aug 28, 2020-Nov 26, 2020 for 
        both A & B, considering at a minimum the impact of multiple 
        disasters, and localized impacts (see 44 CFR  206.48).
    2. Request for dedicated support.--The City has built a productive 
        working relationship with our PDMG (Lisa McDonald), but she 
        currently is assigned to multiple applicants. The size and 
        complexity of the Lake Charles disasters warrants a full time 
        dedicated PDMG, and we respectfully request Ms. McDonald.
    3. Private Property Debris Program.--Need assistance with 
        eligibility interpretations.
    Lake Charles has received authorization from FEMA for the program 
        to reimburse eligible demolition of residential and commercial 
        structures (May 27, 2021). Lake Charles, as a routine action, 
        uses its authority to condemn and demolish unsafe residential 
        and commercial property. This program averages at most 25 
        properties a year. The city has identified over 750 properties 
        as a result of Laura damage, and more are expected from the 
        recent May floods. The initial opinion of FEMA was that only 
        properties with `` . . . imminent threat of collapse'' are 
        allowed for reimbursement. The city disagrees with this policy 
        interpretation and needs assistance as this `` . . . disaster 
        is of such severity and magnitude that effective response is 
        beyond the capabilities of United for Progress and Prosperity 
        [the city of Lake Charles] and that Federal assistance is 
        necessary.'' Furthermore, although properties identified may 
        not be in a state of ``imminent danger of collapse,'' the 
        identified structures are in need of demolition for the 
        ``public interest.'' These properties have been determined as a 
        threat to public health and safety, and, at a minimum, are 
        predominately located in historically disadvantaged 
        neighborhoods and these damaged structures threaten the 
        economic recovery of the community at large. They will fester 
        and affect property values and morale within the community.
    4. Eligibility and Urgent Drainage Repairs.--Request senior 
        guidance and policy positions for efficient consideration of 
        eligibility for drainage cleaning and repair.
    A significant contributing factor of the recent May 2021 flooding 
        and anticipated flooding from summer rains and future storms 
        this year is the capacity impacts caused by debris and 
        sedimentation to our drainage system arising from the multiple 
        disasters. The recent flooding is a warning sign and has caused 
        the city and the Parish to take immediate action including a 
        bond issuance to fund the work. Over the coming weeks we are 
        working out the eligibility of certain work with FEMA but 
        expect many disputes over which storm caused which debris, the 
        imminent threat posed by each element when a more appropriate 
        consideration should be the combined impact of multiple 
        occurrences collectively disrupting the capacity and 
        effectiveness of our drainage.
    5. Public Buildings damaged over 50 percent.--Recommendation to re-
        evaluate and streamline policy and guidance that causes 
        inordinate delay.
    The city has many buildings that were destroyed by Laura that have 
        yet to obtain final approval from FEMA for demolition (see 
        attached photos as examples). Despite the very cooperative and 
        strong FEMA team working with the city, the steps required to 
        obtain approval from FEMA to demolish buildings has taken an 
        inordinately long time to complete. We would not suggest that 
        our current plan be disrupted by change at this point but we 
        find this process unnecessarily cumbersome and worthy of 
        revision.
    6. FEMA should open an appeals center in Lake Charles, LA.--And 
        help any/all registrants appeal their awards where appropriate.
    Recent reporting in the NYT show LA survivors are receiving less 
        assistance than they should.
    a. https://www.nytimes.com/2021/06/07/climate/FEMA-race-
            climate.htm.--SBP has helped 29 families submit appeals, 11 
            have been approved and 18 are still in process. None have 
            been denied. We think this is due to the interim/phone call 
            inspection method. FEMA phone-call inspections were a 
            natural response to COVID-19, but the policy is driving 
            worse outcomes/less assistance for survivors vs their 
            actual needs.
    b. We are not asking for anything outside FEMA's authority. We 
            simply ask FEMA to help more survivors receive all the 
            assistance they are eligible for by openly endorsing the 
            appeals process and assisting survivors in a more dedicated 
            way for the city/region.
    c. CDBG-DR funds won't come for a long time, and people need help 
            immediately. We are heading into the depths of Hurricane 
            Season and accessing proper assistance from FEMA is the 
            only option for many of the most vulnerable survivors.
            Respectfully,
                                        Nicholas E. Hunter,
                                       Mayor, City of Lake Charles.

            MC NEESE STATE UNIVERSITY DECLARATION NO. DR-4559
------------------------------------------------------------------------
                                                        Complete Project
       Damaged Facility              Project No.             Total
------------------------------------------------------------------------
President's Residence.........  164666--(DI No.              $774,664.00
                                 418292).
University Police.............  165730--(DI No.              $903,774.00
                                 418317).
Miller Building...............  164666--(DI No.--          $1,084,990.00
                                 418289).
Student Union Annex Pavillion.  164666--(DI No.--             $80,894.00
                                 444071).
Observatory...................  164666--(DI No.--            $240,680.00
                                 418217).
Baseball Fieldhouse...........  170837--(DI No.--            $679,566.00
                                 418220).
Holbrook Student Union........  164666--(DI No.--          $3,546,991.00
                                 418277).
Farrar Hall...................  164189--(DI No.--         $17,917,754.00
                                 418257).
Bookstore.....................  164666--(DI No.--          $1,107,670.00
                                 418223).
Memorial Gym..................  164666--(DI No.--          $2,703,424.00
                                 418288).
Post Office...................  164666--(DI No.--            $455,481.00
                                 418318).
Sale St. Apartments No. 1.....  164666--(DI No.--          $1,196,024.00
                                 418297).
Sale St. Apartments No. 2.....  164666--(DI No.--            $868,959.00
                                 418298).
Student Services..............  164666--(DI No.--            $959,286.00
                                 418312).
Baseball Canopy...............  175030--(DI No.--            $383,477.00
                                 418238).
                               -----------------------------------------
      TOTAL...................                            $32,903,634.00
------------------------------------------------------------------------

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                                                      

    Mr. Higgins. Thank you, Mr. Chairman. These letters are 
regarding major concerns with FEMA following last year's 
natural disasters, as well as I have several letters sent to 
Congressional leadership out of my office and the White House 
on the issue. I ask unanimous consent to submit those letters 
for the record, Mr. Chairman.
    Chairman Thompson. Without objection so ordered.
    [The information follows:]
                 Letters Submitted by Hon. Clay Higgins
                                      May 18, 2021.
The Honorable Joseph Biden,
President of the United States, 1600 Pennsylvania Avenue, NW, 
        Washington, DC 20500.
    President Biden: Nearly 9 months have passed since Hurricanes Laura 
and Delta devastated Southwest Louisiana. Two major hurricanes hitting 
the same parishes a month apart presented significant challenges and 
requires an extended, large-scale recovery effort. On May 17, 2021, the 
area again experienced torrential rainfall that resulted in significant 
flooding for homes and businesses. These new floods present new 
challenges to families that have still not recovered or been made whole 
from the 2020 hurricanes. As these communities continue to rebuild and 
recover, they will need continued assistance from the Federal 
Government.
    Congress and the Federal Government have worked together to provide 
resources to support housing and rental assistance, utility repairs, 
debris removal, hazard mitigation, and many other disaster response 
costs. You delivered increased Federal assistance in the form of a 100 
percent Federal cost-share for 30 days and a 90 percent Federal cost-
share for remaining Hurricane Laura public assistance program expenses. 
These Federal commitments have greatly eased the financial burden for 
local governments.
    While these efforts help address Southwest Louisiana's immediate 
needs, there is a need for long-term recovery resources for the region, 
especially in light of this major rain flooding event. Louisiana 
Governor John Bel Edwards wrote to you in January 2021 with a request 
for additional funding for hurricane recovery and mitigation efforts, 
which my office supports.
    For 9 months, the Louisiana delegation has been working to build 
support in Congress for supplemental disaster relief. As you know, 
supplemental disaster relief programs greatly streamline direct access 
to recovery monies for local governments, small businesses, and 
individuals. I respectfully urge you to expedite a request to Congress 
for a disaster supplemental to provide the region with specific funding 
for the CDBG Disaster Recovery Grants, as well as additional funds for 
mitigation efforts.
    I respectfully urge you to swiftly implement a supplemental 
disaster relief plan that provides for the many thousands of severely 
impacted Americans in Southwest Louisiana.
            Respectfully,
                                              Clay Higgins,
                                                Member of Congress.
                                 ______
                                 
                                   August 28, 2020.
President Donald J. Trump,
The White House, 1600 Pennsylvania Avenue NW, Washington, DC 20500.
    President Trump: We write to you today in support of a major 
disaster declaration for the State of Louisiana in the wake of 
Hurricanes Laura and Marco. The damage caused by these storms will have 
long-lasting effects on the people of Louisiana and its economy.
    As you know, during the early morning hours of August 27, 2020, 
Hurricane Laura made landfall in Cameron Parish, Louisiana near the 
Louisiana-Texas State line. The storm continued moving north bringing 
over 100 mph winds into populated areas, which caused devastating 
property losses. State and local capabilities are overwhelmed not only 
by the current emergency, which occurred against the backdrop of the 
COVID-19 pandemic, but from existing damage from Tropical Storm 
Cristobal and Hurricane Marco that impacted the same region this 
hurricane season. These events have placed tremendous stress on 
precious emergency response resources, and we ask that you consider 
these extenuating circumstances when allocating Public and Individual 
Assistance from the Federal Emergency Management Agency.
    The Governor of the State of Louisiana, John Bel Edwards, has made 
a formal request for a declaration to include the Louisiana Parishes of 
Allen, Beauregard, Calcasieu, Cameron, Jefferson Davis, Acadia, 
Vermilion, Catahoula, Grant, La Salle, Natchitoches, Rapides, Sabine, 
Vernon, Winn, Bienville, Claiborne, Red River, Caldwell, Jackson, 
Lincoln, Ouachita, and Union. With the issuance of a major disaster 
declaration, and the authorization of public and individual assistance, 
the full weight of the Federal Government can be deployed into the 
affected areas to assist those in need and begin rebuilding.
    Again, we respectfully request that the Federal Government issue a 
major disaster declaration for the State of Louisiana. As elected 
officials, we must do all we can to assist affected Americans in their 
time of need. These resources must be quickly made available to equip 
our State and local governments to respond rapidly and effectively to 
Hurricanes Laura and Marco.
            Sincerely,
                                        Bill Cassidy, M.D.,
                                                       U.S. Senate.
                                              John Kennedy,
                                                       U.S. Senate.
                                              Clay Higgins,
                                         United States Congressman.
                                             Steve Scalise,
                                         United States Congressman.
                                             Garret Graves,
                                         United States Congressman.
                                             Ralph Abraham,
                                         United States Congressman.
                                           Cedric Richmond,
                                         United States Congressman.
                                              Mike Johnson,
                                         United States Congressman.
                                 ______
                                 
                                September 08, 2020.
President Donald J. Trump,
The White House, 1600 Pennsylvania Avenue NW, Washington, DC 20500.
    President Trump: Thank you for your recent visit to Louisiana to 
view the devastation left in the wake of Hurricane Laura and for your 
quick issuance and subsequent amendments to the Major Disaster 
Declaration for the State of Louisiana (FEMA-4559-DR-LA.) I am writing 
today to ask that you use your authority to proactively grant a cost 
share adjustment for the Public Assistance portion of the Declaration 
to help communities already experiencing a significant decrease in 
revenue due to COVID-19.
    As you know, during the early morning hours of August 27, 2020, 
Hurricane Laura made landfall in Cameron Parish, Louisiana near the 
Louisiana-Texas State line. The storm continued moving north bringing 
over 100 mph winds into populated areas well into northern portions of 
the State, which caused devastating property losses. State and local 
capabilities were already stretched to the limits by the extreme 
economic impact triggered by the COVID-19 pandemic. COVID-19 impact has 
placed tremendous stress on precious emergency response resources and 
have diminished local and State revenue sources, issues that have been 
exacerbated by Hurricane Laura.
    I have complete faith that our Governor will navigate Louisiana 
through the recovery effort and ultimately he deserves our full support 
in that daunting task. This request reflects my personal support for 
our local and State government entities as we struggle through recovery 
from unprecedented storm damage. Granting a cost share adjustment for 
Public Assistance funds recognizes that the scale of the current 
declared disaster, added to the extreme negative economic effects of 
COVID-19, leave our State and local governments unable to absorb 25 
percent of the recovery costs. Therefore, I ask that you take into 
account the devastating impact of hurricane Laura, in conjunction with 
the economic damage caused by COVID-19 shutdowns and consider a cost 
share adjustment to 90 percent Federal share.
    Thank you again your commitment to making Louisiana whole. I look 
forward to continuing to work with you and your Administration to 
ensure that Louisiana has the resources it needs to recover from the 
devastation caused by Hurricane Laura.
            Respectfully,
                                              Clay Higgins,
                                                Member of Congress.
                                 ______
                                 
                                    April 15, 2021.
Honorable Nancy Pelosi,
Speaker of the House of Representatives, U.S. Capitol, Washington, DC 
        20515.
    Speaker Pelosi: Nearly 8 months have passed since Hurricanes Laura 
and Delta devastated Southwest Louisiana. Two major hurricanes hitting 
the same parishes a month apart presented significant challenges and 
requires an extended, large-scale recovery effort. As these communities 
continue to rebuild and recover, they will need continued assistance 
from the Federal Government.
    Congress and the Federal Government have worked together to provide 
resources to support housing and rental assistance, utility repairs, 
debris removal, hazard mitigation, and other disaster response costs. 
Both President Trump and President Biden delivered increased Federal 
assistance in the form of 100 percent Federal cost-share for 30 days 
and 90 percent Federal cost-share for remaining Hurricane Laura public 
assistance program expenses. These Federal commitments have greatly 
eased the financial burden for local governments.
    While the above efforts help Southwest Louisiana's immediate needs, 
we also recognize the importance of long-term recovery resources for 
the region. Louisiana Governor John Bel Edwards and Louisiana local 
officials have asked Congress to appropriate additional funding for 
hurricane recovery and mitigation efforts. We support this recent 
request, and Louisiana's congressional delegation continues to stand 
united behind Southwest Louisiana's long-term recovery needs.
    For months, the Louisiana delegation has been working to build 
support in Congress for supplemental disaster relief. Though our 
disaster recovery amendments to the most recent COVID-19 spending bill 
were blocked, I remain hopeful that we can advance additional support 
through Congress in a bipartisan manner. This is needed to provide 
relief for Southwest Louisiana and other communities hit by major 
disasters in 2020, including those damaged in the California wildfires.
    As a community, we will continue working with all our local, State, 
and Federal partners to prioritize the needs of Southwest Louisiana. I 
respectfully urge you to swiftly implement a supplemental disaster 
relief plan that provides for the thousands of severely impacted 
Americans in Southwest Louisiana.
            Respectfully,
                                              Clay Higgins,
                                                Member of Congress.
                                 ______
                                 
                                   October 9, 2020.
President Donald J. Trump,
The White House, 1600 Pennsylvania Avenue NW, Washington, DC 20500.
    President Trump: Thank you for your visit to Louisiana to view the 
devastation left in the wake of Hurricane Laura and for your quick 
issuance of the Major Disaster Declaration for the State of Louisiana 
(FEMA-4559-DR-LA) and its subsequent amendments. We are writing today 
to ask that you use your authority under Section 1232 of the Disaster 
Recovery Reform Act to adjust the Public Assistance cost share portion 
of the Declaration. This will ensure that communities already 
experiencing a decrease in revenue due to COVID-19 and the compounding 
impact of a particularly harsh storm season along the Gulf Coast will 
have the resources to participate in FEMA's disaster recovery programs.
    As you know, during the early morning hours of August 27, 2020, 
Hurricane Laura made landfall in Cameron Parish, Louisiana near the 
Louisiana-Texas State line. As the storm moved inland, it brought 
greater than 100 mph winds into populated areas well into the northern 
parishes of Louisiana, which resulted in devastating property losses. 
Current estimates on the cost of the damage from Hurricane Laura range 
from $8 billion to $12 billion and will undoubtedly continue to grow 
over the next several years. Further complicating the rebuilding 
efforts is Hurricane Delta, which is projected to follow a similar path 
to Hurricane Laura. Hurricane Delta is the sixth tropical storm to 
affect Louisiana this year and threatens to bring additional turmoil to 
an already devastated region.
    Even prior to Hurricane Laura's landfall, State and local emergency 
response capabilities were stretched to the limits by the COVID-19 
pandemic, Tropical Storm Cristobal, and Hurricane Marco. Section 1232 
of the Disaster Recovery Reform Act, which you signed into law in 2018, 
instructed FEMA to consider the severe local impact created by multiple 
disasters or emergencies occurring in close geographical and 
chronological proximity when making recommendations regarding a major 
disaster declaration. These events have placed tremendous stress on 
precious emergency response resources and have diminished local and 
State revenue sources, exacerbating the physical destruction left in 
the wake of Hurricane Laura.
    Granting a cost share adjustment for Public Assistance funds 
recognizes that the scale of current declared disaster, the negative 
economic effects of COVID-19, and the damage done by previous storms 
may be too great for State and local governments to absorb 25 percent 
of the recovery costs. Therefore, we ask that your administration not 
consider each impact in a vacuum but instead take into account the 
cumulative impacts of these storms, in conjunction with the economic 
damage caused by COVID-19 and grant the State of Louisiana a larger 
share of Federal funding.
    Thank you again your commitment to getting Louisiana back on its 
feet. We look forward to continuing to work with you and your 
Administration to ensure that Louisiana has the resources it needs to 
recover from the devastation caused by Hurricane Laura.
            Respectfully,
                                         Bill Cassidy, M.D.
                                             United States Senator.
                                              John Kennedy,
                                             United States Senator.
                                              Clay Higgins,
                                         United States Congressman.
                                             Steve Scalise,
                                         United States Congressman.
                                       Ralph Abraham, M.D.,
                                         United States Congressman.
                                             Garret Graves,
                                         United States Congressman.
                                              Mike Johnson,
                                         United States Congressman.
                                           Cedric Richmond,
                                         United States Congressman.
                                 ______
                                 
                                  October 14, 2020.
President Donald J. Trump,
The White House, 1600 Pennsylvania Avenue NW, Washington, DC 20500.
    President Trump: I write to you today in support of a major 
disaster declaration for the State of Louisiana in the wake of 
Hurricane Delta. The damage caused by this storm, as well as the 
already existing devastation in the region caused by Hurricane Laura, 
will have long-lasting effects on the people of Louisiana and its 
economy.
    As you know, on October 9, 2020, Hurricane Delta made landfall at 
Creole, Louisiana, just east of where Hurricane Laura first touched the 
State. The storm continued moving north bringing high winds and heavy 
rains into populated areas, which caused devastating property losses. 
State and local capabilities are overwhelmed not only by the current 
emergency, which occurred against the backdrop of the COVID-19 
pandemic, but also from existing damage from Tropical Storm Cristobal 
and Hurricanes Marco and Laura that impacted the same region this 
hurricane season. These events have placed tremendous stress on 
precious emergency response resources, and we ask that you consider 
these extenuating circumstances when allocating Public and Individual 
Assistance from the Federal Emergency Management Agency.
    The Governor of the State of Louisiana, John Bel Edwards, has made 
a formal request for an expedited declaration to include Individual 
Assistance; and debris removal and emergency protective measures, 
including direct Federal assistance under the Public Assistance program 
for Acadia, Calcasieu, Cameron, Jefferson Davis, and Vermilion 
Parishes; and Hazard Mitigation Statewide. With the Governor's prompt 
request, the issuance of a major disaster declaration and the 
authorization of public and individual assistance, the full weight of 
the Federal Government can be deployed into the impacted areas to 
assist those in need and begin rebuilding.
    Again, I respectfully request that the Federal Government issue a 
major disaster declaration for the State of Louisiana. As elected 
officials, we must do all we can to assist affected Americans in their 
time of need. These resources must be quickly made available to equip 
our State and local governments to respond rapidly and effectively to 
Hurricanes Laura and Delta.
            Respectfully,
                                              Clay Higgins,
                                         United States Congressman.

    Mr. Higgins. Thank you, Mr. Chairman. Ms. Criswell, you are 
familiar with Madison. In Federalist 62, he wrote that it will 
be of little avail to the people that the laws are made by men 
of their own choice if the laws be so voluminous and that they 
cannot be read or so incoherent that they cannot be understood. 
That is largely reflective of these letters that I just 
submitted. The people that I represent are begging for help 
from FEMA to navigate through FEMA's own complexities to access 
existing funds through existing programs for recovery relief. I 
ask for your commitment to work with the people of southwest 
Louisiana to help them navigate through these complexities and 
to ease their pain. Can I have your commitment from you and 
agency, Madam, on that?
    Ms. Criswell. Representative Higgins, absolutely you have 
my commitment. I recently visited Louisiana and met with the 
political leadership in southwest Louisiana that were impacted 
by those storms. We have recently opened up a recovery center 
that is providing not just assistance to the current storm that 
was experienced in recent weeks, but also to help them navigate 
the process for the previous storms as well. So, you have my--
--
    Mr. Higgins. I ask--yes, ma'am, and I ask for your 
commitment there. In the interest of time, in closing I would 
like to ask for your commitment and assistance to accomplish 
two things. First, Louisiana delegation has been pushing for 
the supplemental disaster funding for some time now, many 
months. I respectfully ask that you amplify that request to 
President Biden. Second, again, I ask for your assistance with 
helping local government in my district fully understand the 
pre-disaster mitigation grant process and other resources that 
are available to them. I thank you, ma'am, for being here 
today. I have several questions that I will submit in writing 
and I very much look forward to working with you. Thank you, 
Mr. Chair, and I yield.
    Chairman Thompson. Thank you very much. The Chair yields 
back. The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman, and good morning, 
Administrator. I want to thank you for being here today and for 
making integrated equity into everything FEMA does one of your 
first priorities. Before, during, and after disasters, people 
with disabilities as well as older adults, have unique needs, 
many of which differ substantially from those of the general 
public. How do you view the incorporation of these vulnerable 
populations in disaster management of making them a forethought 
not an afterthought, particularly in terms of your commitment 
to equity?
    Ms. Criswell. Representative Langevin, I really appreciate 
and thank you for your continued advocacy for people with 
disabilities. As I have stated, equity is one of my priorities 
and that includes people with disabilities. And have seen 
first-hand in the disasters that I have responded to the 
struggles that this community faces when trying to respond to 
or recover themselves from disasters.
    FEMA has made a lot of strides in that area. In 2009, FEMA 
established the Office of Disability Integration and 
Coordination. Through that office, they have done a lot of work 
to increase our own agency's understanding of how to make sure 
our programs are accessible and that we are meeting the needs 
of the people that have specific needs. We continue to deploy 
disability integration specialists to all of our disasters, 
specifically to make sure that we are understanding the needs 
of the community and addressing them. So, you have my 
commitment to continue forward with that process and I would be 
happy to work with you and your staff if there are areas where 
you think we can improve in that effort.
    Mr. Langevin. Very good. Thank you, Administrator. I am 
glad that you recognize the importance of considering the needs 
of older adults and people with disabilities. I take you up on 
that offer. I look forward to working with you on that and many 
other issues.
    I do want to call your attention to one other thing, 
though. There was a 2019 GAO report entitled, and I quote, the 
title of it was, ``FEMA Action Needed to Better Support 
Individuals Who Are Older or Have Disabilities.'' It revealed 
that FEMA partners, including States, territories, localities, 
and non-profits have experienced challenges assisting these 
populations. So, are you aware that FEMA has historically 
struggled to support older adults and people with disabilities 
during and after disasters in part due to the lack of planning 
for these populations?
    Ms. Criswell. Again, Representative, I think that FEMA has 
done a lot since the development of that program in 2009 in 
bringing on the disability, Office of Disability Integration 
and Coordination. I will go back and look at that report more 
specifically so I better understand some of the challenges that 
were identified in that report. I apologize, I am not familiar 
with it. But I think that we all have work that we can do to 
improve our approach in how we deliver services to make sure 
that we are planning appropriately for everybody.
    Mr. Langevin. Very good. Thank you for your commitment to 
that and to looking at the report. I appreciate it and I know 
that FEMA will be doing a much better job under your leadership 
and I thank you for that.
    So, you know, I am currently working with Senator Casey to 
introduce what we call the READI for Disasters Act. So, this 
bill will support the development of disaster preparedness, 
response, recovery, and mitigation plans that are inclusive of 
older adults and people with disabilities by creating a network 
of centers to provide relevant trainings and technical 
assistance to State and local governments. It would also expand 
the National Advisory Committee on Individuals with 
Disabilities and Disasters so that its membership accurately 
reflects the diverse characteristics of the disability 
communities and direct the Department of Justice to review the 
extent to which civil rights of people with disabilities and 
older adults are upheld during and after disasters. Do you 
believe that our bill would help ensure that older adults and 
people with disabilities are supported in disaster management? 
Do you think it would be helpful?
    Ms. Criswell. I don't have the specifics of the bill, but I 
know that our staff are working together on the development of 
this. We are happy to continue to provide technical drafting 
assistance to help this bill through the legislative process.
    Mr. Langevin. Thank you. I would welcome your help on that. 
I guess last, I wanted to get into, does FEMA have any 
consideration of cyber-based disasters that would require an 
IT-focused assistance?
    Ms. Criswell. FEMA coordinates really closely with CISA at 
DHS and other members of the emergency management community to 
increase our preparedness and our understanding of the cyber-
related threats. We do also have available $4 million in fiscal 
year 2021 grants to support increasing the preparedness for 
cybersecurity. I know that the fiscal year 2022 budget is going 
to add 10 additional employees to the FEMA staff to 
specifically address and strengthen our own cybersecurity 
posture.
    Mr. Langevin. Very good. I know my time has expired but 
thank you for those answers. I think, you know, if fire and 
police databases were hijacked by ransomware in some State or 
region, you know, this would allow FEMA to be able to help 
supplement IT functions such as communications, planning, and 
operations until they were back on their feet. So, I think that 
is important to look at. Thank you, Mr. Chairman, and I yield 
back.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes North Carolina for 5 minutes, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you 
Administrator Criswell for being with us. You may be aware that 
North Carolina has been hit repeatedly by damaging hurricanes 
in recent years, Matthew in 2016, Florence in 2018, Dorian in 
2019. FEMA's timely assistance is critical for the recovery 
efforts from these disasters. However, we continue to see very 
long wait times in delivery of benefits in the public 
assistance program. I represent--one of my counties in my 
district in Robeson County in North Carolina, one of the most 
economically challenged in North Carolina. It is home, by the 
way, to most of the members of the Lumbee Indian Tribe, which 
perhaps coincidentally remains unjustly without fully Federal 
recognition despite commitments of many to supporting that.
    An elementary school and other buildings owned by the 
Robeson County Public School System there were destroyed in 
late September 2016 in the first of these 3 storms, Matthew. 
The school system's public assistance claim remains unresolved 
and in about 90 days it will be more than--it will be 5 years 
spanning 3 administrations without even final decision about 
the amount of public assistance to be provided. FEMA persists 
in attempting, at least from my perspective, to apply its rule 
concerning repair versus replacement in a manner contrary to 
the plain language of that rule.
    Like the stature in this saga appeared, I guess, under this 
administration in just the last several weeks, the Chairman and 
Ranking Member referred to the disaster declaration processes 
for rural Americans, but the reference also was made to the 
public assistance backlog. The public has sort-of become, I 
guess, even numb maybe to these stories by now. But this one 
seems to be an egregious example of this problem. Your 
testimony, ma'am, said that FEMA intends to integrate equity 
into everything we do, but that seems to be an empty promise if 
FEMA is diverting resources, for example, to facilitating the 
entry of illegal migrants at the Southwest Border despite 
leaving unaddressed the replacement of a destroyed elementary 
school and the challenge of an American county for 5 years. 
What is FEMA's most current assessment of the aging of 
unresolved public assistance claims from past disasters? How 
are those being addressed?
    Ms. Criswell. Thank you, Representative Bishop. It is a 
really timely conversation. There are, you know, several 
disasters that are currently open across the country dating 
back many years. The recovery process as we continue to see 
more frequent and more severe disasters becomes even more 
complicated in bringing in multiple different recovery sources 
to assist with that process. One of the things that we are 
focused on is trying to make sure that we are helping to 
increase the capacity of our State and local jurisdictions so 
they can better manage their recovery processes well, and we 
can work together to facilitate getting these projects through.
    I don't have the specific numbers in front of me to address 
your question specifically. We can certainly get that to you. 
But I understand that it is a challenge and under my 
leadership, we are going to work on how we can start to improve 
and expedite that process and streamline it so it does not take 
as long.
    Mr. Bishop. Thank you, ma'am. As long as I am on the 
subject about your commitment to integrating equity into 
everything we do, you made reference to FEMA's internal 
diversity equity and inclusion programming and using the length 
of equity. Does FEMA use critical race theory concepts and 
doctrine in internal training of its workforce?
    Ms. Criswell. Diversity, equity, and inclusion is such an 
important part of our internal workforce. Being able to have 
people in leadership positions that they can relate to and they 
can understand just seeing myself in this position really 
allows women across the country to see what is possible for 
them. We will continue to provide anti-harassment training to 
support our leadership team and also work on ways that we can 
increase the diversity pool of applicants so we can get more 
diversity within our leadership.
    Mr. Bishop. Do you know whether you are using critical race 
theory concepts in that training?
    Ms. Criswell. We are not using critical race theory 
concepts. We are using established anti-harassment-type 
training that has been around for decades.
    Mr. Bishop. Thank you, ma'am. Mr. Chairman, I yield back.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentlelady from Michigan for 5 minutes, Ms. 
Slotkin.
    Ms. Slotkin. Thank you, Mr. Chairman. Administrator, you 
are welcome here. Congratulations on your confirmation and 
thanks for taking on this really critical job. I am from 
Michigan and we have just experienced really extreme flooding 
and it is still raining there. By some measures, we got 6 
months' worth of rain in a day. We got 6 inches of rain in less 
than 5 hours, and places like Detroit and Dearborn are 
literally under water. Flooded highways, cars floating down the 
highways, flooded basements across the country. Can you just 
confirm for me if Governor Whitmer submits a proposal to FEMA 
to declare a National emergency, that you all will move swiftly 
to confirm it?
    Ms. Criswell. Representative, I am familiar with the 
flooding that is currently on-going in Michigan, and Michigan 
is my home State. It is where I grew up. So, I have a lot of 
attachment there and all my family still lives there. As they 
are going through the assessment process right now and they 
submit a request, I will commit to swiftly assessing that and 
determining if it meets eligibility.
    Ms. Slotkin. Great. Well, it makes me feel much better that 
you are a Michigander. You won't leave us hanging. The second 
thing is, you know, a lot of the residents who have been 
hardest hit, a lot of them are seniors. A lot of them do not 
have access to the internet. I am concerned the claims that 
they are going to file that you are requiring people to file 
are going to require facility with the internet. Can you also 
help us understand your plan if we do have a declaration of an 
emergency to get boots on the ground, people who can help us go 
door to door. Time is of the essence. Can you talk to us about 
that given that not everyone is, you know, fluent in the 
internet?
    Ms. Criswell. Absolutely. You know, again, the one thing 
that we have learned from COVID-19 is that we need to meet 
people where they are at. We have seen that in other disasters 
as well. FEMA does have a process here, a team of our workforce 
that is the Disaster Survivor Assistance teams that, you know, 
if the disaster is declared, they can go out and help with that 
in-person approach. You know, I think as we have discussed 
already, access to the assistance that is available is one of 
the big barriers that we face and we have to make sure that we 
are leaning forward into that to eliminate the barrier access 
and help meet people where they are at to get them the 
assistance that they are eligible for.
    Ms. Slotkin. Thank you for that. Then on just the bigger 
picture, you know, I think everyone who has already asked a 
question has had to deal with some sort of disaster in their 
home State, in their home community. We have all experienced 
them over the past, you know, 5, 10 years. My question, just as 
someone who used to work at the Pentagon, is really about how 
FEMA plans. I mean, we know that we are likely to see just 
separate from politics, an increase in the number of storms, an 
increase in severity of those storms. We are going to have more 
historic droughts like we are seeing in the West Coast. So, if 
we just take that as a National security and homeland security 
issue, tell me how FEMA is changing your plans for budgets, for 
staffing. What more can we be helping you with since all of us 
need FEMA from time to time and that need is going to go up and 
not down over the next decade.
    Ms. Criswell. I think the first piece to that question is 
the fact that we are seeing more severe, more frequent storms 
that are impacting communities across this country. We have an 
opportunity right now to make generational-level investments in 
trying to reduce that risk, reduce the impact that they are 
feeling from these disasters. That is one of the first steps 
that I think we need to do as far as the planning piece of this 
is making sure that we are working with our communities to help 
them apply for the mitigation programs that we have to reduce 
their own impacts so there is not going to be a need to 
respond.
    But as we do respond and until we can get mitigation 
projects in place, we do want to make sure that we have the 
appropriate staffing. As I mentioned earlier on this year-round 
cycle of response now instead of the more traditional peak in 
the summer, while it still peaks in the summer, our teams are 
deploying out around the clock now, year-round. So, we are 
assessing what that looks like for us so we can make a 
determination on what the right posture is for our workforce, 
and I am happy to be able to come back to you once we 
understand better what our needs are and seeking your 
assistance in helping us get to that level of staffing and 
support.
    Ms. Slotkin. Yeah, I think this committee would welcome a 
really sort-of forward-looking, bold, interesting concept that 
is appropriate for the disasters that are ahead of us. So, 
thanks very much. Mr. Chairman, I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
New Jersey, Mr. Van Drew, for 5 minutes.
    Mr. Van Drew. Thank you, Mr. Chairman, and Ranking Member 
for holding this hearing today. Administrator Criswell, thank 
you for being here testifying before the committee. As we all 
know, FEMA is a critical agency to the Department of Homeland 
Security. I am grateful for the work that you do and the work 
that the agency does.
    New Jersey, as I am sure you know, is in consistent, 
constant peril from natural disasters. Superstorm Sandy, for 
example, caused nearly $30 billion in economic damages to the 
State. Obviously, that number does not account for the impact 
of the storm and the impact the storm had on families who lost 
loved ones and the countless other tragic implications the 
storm imposed. Governor Christie stated that at the time, that 
the damages were going to be almost incalculable. That the 
devastation on the Jersey Shore is probably going to be the 
worst we have ever seen. Unfortunately, he was correct.
    Natural disasters have life-altering consequences, which is 
why Members of this committee must ensure that FEMA has the 
tools and is prepared as it possibly can be to respond. 
Administrator Criswell, I understand that FEMA--and this is 
very important to me--is updating the National Flood Insurance 
Program risk rating methodology through its latest system 
called Risk Rating 2.0. While the program states that one of 
its goals is to deliver sound and accurate rates, I am 
concerned that for many of my constituents they will be forced 
to either pay much higher rates or move as a result of not 
being able to pay. Neither of these are viable options, 
especially because the cost of living in New Jersey, as I think 
you all know, is just about the highest in the Nation.
    Is there a strategy in place to assist residents who will 
not be able to afford flood insurance as a result of the 
updated risk rating methodology? As part of this methodology, 
are we going to try to control the cost as much as we possibly 
can because flood insurance is so important to so many, yet so 
very expensive?
    Ms. Criswell. Representative Van Drew, thank you for that 
question. You know, under the current pricing system, NFIP 
policy holders share the burden to the cost of the insurance 
premium. Under Risk Rating 2.0, that burden now is going to be 
shifted to those and based on an individual homeowner's risk. 
So, under the current system, all policy holders would see an 
increase in their insurance premiums going forward. Under the 
new system, those that don't have as high of risk will actually 
see a decrease in their policies. But there will be some that 
will have an increase. On your point of are we going to control 
the cost and make sure that we have an affordable way to do 
this, this is a new methodology and we are committed to an 
affordability framework and we have put that in our fiscal year 
2022 budget to help homeowners who can't afford this new 
increase do that.
    But we are also doing this in a phased approach. Homeowners 
that are going to have an increase in their flood insurance 
rates will not experience an increase until next year, until 
April of next year, and it is capped at 18 percent per year. 
Then there is also going to be a maximum cap once they reach 
the maximum amount of the insurance policy, it will not go up 
any further after that. But would welcome the opportunity to 
continue to work with Congress on the affordability framework 
so we can make sure that everybody can afford the insurance.
    Mr. Van Drew. Well, 18 percent is a whole lot still to me, 
and I imagine that you would think it is too. You know, 
concerns me a great deal. It is easy for all of us, you know, 
to have these conversations here, but obviously, when you get 
back in your district and you tell people something is going to 
go up 18 percent at a regular level until a certain point, they 
are not going to be happy folks. I also know that you know that 
it is going to be a real interesting conversation because we 
have been through this before who is really more at-risk or 
not, and what methodology is used and what parameters are used.
    This is an area of continual agitation and concern and, you 
know, it is important because the economic growth of certain 
areas of this country and it is not only oceanfront like I have 
and bayfront, but it is also rivers and other areas as you 
know. If these folks with everything else that is happening get 
hit too hard by FEMA and these costs, it is going to be tragic.
    So, it is a really, really big issue. I really appreciate 
your work. I would love you to come to New Jersey some time. I 
am sure you have been there. Everybody's been in New Jersey at 
least once. But just see some of the challenges we have and I 
would be certainly glad to take you around and really show you 
what is going on. But if there is a concern level from a 0 to 
100 on this issue, I am at 100, just to let you know, and so 
are other people. You don't hear a lot about it now. Wait until 
those 18 percent increases come forward. You are going to get 
so much noise it will be unbelievable. New Jersey people are so 
loud, believe me. I think I have----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Van Drew. I yield back my time. It is a pleasure to 
talk to you.
    Chairman Thompson. The Chair recognizes the gentleman from 
Missouri, Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. Thank you, Madam 
Administrator, for being with us today. The Chairman and Mr. 
Katko raised an issue that I am also very much concerned about, 
so, I won't go through it. I think you are certainly aware, you 
know, the Missouri River is the longest river system in the 
country only by a little short 100 miles from the Mississippi 
River. It is longer than the Mississippi River. So, we are 
going to have problems every single year. That $8.9 million 
damage threshold is a problem. I represent a farming community 
all along the Missouri River and it is just devastating. You 
got a town like, you know, probably Aurora with 800 people, and 
if you would wipe out all of the downtown area, you may not go 
to $8.9 million and yet that is how it is devastated. You have 
already heard that I am not going to bring that up again.
    I do need to say, you know, I am not sure what--I am going 
to try to find out today. I said I was going to do it earlier, 
whatever this racial theory is, which I have never heard of. I 
have a master's but I guess, you know, I will try to find out 
what it is. It is kind-of confusing to me. I heard of it I 
think about a month ago. I am not sure if FEMA is in charge of 
racial stuff. I don't know. I don't know if they changed your 
job description.
    But anyway, what I want to talk about though is the 
vaccination effort in rural communities. As I said, I represent 
a large rural community in Missouri and they, you know, my 
rural area is a hot spot, one of the hottest spots in the 
Nation for COVID-19, particularly as it relates to this new 
Delta variant. I am hoping that with this dangerous increase in 
rural America and in my district in particular where I am 
talking about, can you give us any kind of update on how FEMA 
is being involved in the local communities with the vaccine 
distribution?
    Ms. Criswell. Yes, sir. FEMA has had a strong role in the 
rollout of the COVID-19 vaccine and really played a significant 
part in getting America vaccinated. We did this by supporting 
over 2,100 community vaccination centers across the country 
with either resources, funding, or personnel. We also 
established 39 Federally-run community vaccination centers. The 
Federally-run centers that we established, we worked really 
hard and close with the State and local officials to identify 
where they needed them, where they wanted them placed so we 
could reach those underserved communities. It is really a 
success story. Of all of the vaccines that we delivered to 
these, nearly 60 percent of our vaccines were administered to 
underserved populations.
    All of those centers currently, the Federally-run centers, 
have been closed. But we are still supporting local 
jurisdictions through their established centers, as well as 
mobile vaccination units that we have in different areas and 
available to deploy. As we see the changes with the Delta 
variant, if the need arises, FEMA is ready to reestablish any 
assistance that we need in case we need to continue to get the 
vaccinations out there.
    Mr. Cleaver. OK. I think my time is probably running down. 
So, thank you very much. I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Iowa, Mrs. Miller-Meeks, for 5 
minutes.
    Mrs. Miller-Meeks. Thank you, Mr. Chair, also thank you, 
Ranking Member Katko and Administrator Criswell for being here 
today. FEMA uses the phrase, locally-executed, State-managed, 
and Federally-supported. This concept requires all of us to 
have actual capability and depth at every single level. In the 
past, I have asked FEMA as they set up vaccination clinics, the 
level of their health personnel and emergency personnel. Given 
that FEMA is not, you know, does not have expertise or 
scientists or health personnel as part of your personnel, can 
you explain to me or discuss with me how the chain of command 
and how the delegation of responsibilities works? Did you work 
with the Assistant Secretary of Pandemic Response, the CDC, 
HHS, local public health? Who should be the head agency when we 
are dealing with a pandemic? Do we need to rethink how, you 
know, how to score true readiness at the State, local, Tribal, 
and territorial levels?
    Ms. Criswell. The phrase that you mentioned, Federally-
supported, State-managed, locally-executed, I think is an 
important concept for us to bring up. All disasters, I have 
been a local emergency manager, they start and end with the 
local jurisdiction. That is the locally-executed part. The 
State and the Federal Government need to be part of that 
process to make sure that they are successful. The Federal 
Government does that in a number of ways by making sure that we 
are increasing their capacity to be able to perform their 
mission. When it came to supporting the vaccination effort or 
supporting the COVID-19 response in general, coming from my own 
experience in New York City, it truly was a collaborative 
approach of making sure that the Federal Government, while they 
are supporting, they understood the needs of the local 
jurisdiction and letting the local jurisdictions set the 
planning assumptions for them for the assistance that they were 
going to provide. I think that is a really critical piece of 
making sure that, again, that the Federal Government is 
supporting the actual needs on the ground of what the local 
communities say that they have.
    When it comes to the Federal coordination, that is where 
FEMA is an expert, right? We can bring in all of the Federal 
partners. We are very good at coordinating the stakeholders and 
bringing the appropriate people together to support a response. 
That is what FEMA did during the response to COVID-19. I think 
we have an opportunity to see where we need to build capacity 
across the Federal Government for certain disasters when they 
don't squarely fall into the disaster response role that FEMA 
typically does, and I would be happy to work with you as we 
continue to have that conversation.
    Mrs. Miller-Meeks. Then given the scientific and medical 
nature of this particular National emergency, who was 
responsible for the messaging? So, as a physician and a former 
director of the Iowa State Department of Public Health, there 
was confusion in the messaging, so, was that responsibility of 
CDC? Was that the responsibility of ASPR?
    Ms. Criswell. The messaging was critically important 
through all this. As you know very well, you know, the stuff we 
learned about the COVID-19 virus changed on a regular basis. As 
part of the leadership role that FEMA ended up playing, we had 
HHS experts and medical experts embedded with us as part of 
that operation because as you stated, we don't have that level 
of expertise. So, it was truly a coordinated approach. I would 
always defer to the message to be those that are the experts in 
that message, and then FEMA can help amplify that message.
    Mrs. Miller-Meeks. Thank you. Then during disasters, FEMA 
moves resources from unaffected areas to affected areas. 
However, the COVID-19 pandemic affected the entire Nation 
almost simultaneously, which led to significant supply 
shortages of personal protective equipment and other necessary 
supplies. A report published by FEMA in January found that in 
order to mitigate further supply shortages, FEMA should 
establish a long-term strategy for engaging with the private 
sector. How has FEMA engaged with the private sector to address 
resource and supply shortfalls?
    Ms. Criswell. We learned so much through the COVID-19 
pandemic and the critical and often fragile nature of our 
supply chain and where we depend on things. We were able to put 
in some new methodologies working really closely with the 
private sector to make sure that we were meeting the needs of 
first responders. But it is the first time, as you stated with 
disasters across the country, that we really faced a resource 
shortage at this level. We are working closely with the private 
sector to establish better relationships and understand how we 
can bring them in better.
    We can never replace the resources that the private sector 
brings to bear to support disaster response. So, we need to 
understand better what their capabilities are. We are having 
on-going conversations with different sectors across the 
private sector to make sure that we understand how to get them 
back up on-line faster, but also how they can support us in our 
response. Those conversations are on-going.
    Mrs. Miller-Meeks. Thank you so much. Mr. Chair, I yield 
back my time.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from New York for 5 minutes, Ms. 
Clarke.
    Ms. Clarke. Thank you, Chairman Thompson and Ranking Member 
Katko for holding this critical hearing on the state of our 
emergency management preparedness. Thank you as well to 
Administrator Criswell for joining us today offering testimony 
and let me also congratulate you on your recent confirmation. I 
know first-hand the excellent hard work and diligence that you 
have exhibited as our emergency manager commissioner in New 
York City. I have full confidence that you will lead FEMA with 
the same steadfast dedication.
    As you are aware, the climate crisis is not only an 
existential threat to our planet, it also presents a major and 
immediate danger to our communities. Like so many Americans, I 
watched in horror last year as wildfires and storms ravaged our 
Nation. Unfortunately, the weather predictions for this year 
are equally as alarming. Back home in my Congressional district 
in Brooklyn, New York, many of my constituents are still 
struggling to recover from the devastating impacts of 
Superstorm Sandy that flooded people's homes and inflicted 
permanent damage to our critical infrastructure.
    The plain and simple truth is that climate change has 
fueled a troubling rise in extreme weather disasters and events 
over recent decades making FEMA's job of protecting Americans 
more critical, yet more challenging than ever before. That is 
why I am astonished that when the Trump administration in 2018 
took unprecedented steps to ignore science and remove the term 
climate change entirely from FEMA's strategic plan. Not even 
the term sea-level rise made it into the final document. To me, 
this isn't just a matter of words. Omitting climate change from 
the strategic plan represents a broader attempt by the previous 
administration to play with people's lives in the name of 
partisan politics. Administrator Criswell, under your 
leadership, what steps is FEMA taking currently to 
reincorporate climate change into its strategic plan and 
throughout the agency more broadly?
    Ms. Criswell. Thank you for that question. We are seeing an 
incredible rise in the number of disasters, the severity of 
disasters, and how rapidly they are intensifying like we have 
never seen before. This is a direct result of our changing 
climate. We have to be deliberate and brave about our 
approaches to reducing the impacts that we are seeing from 
climate change. As I have mentioned, we have a number of 
mitigation grant programs that are a first step in helping 
communities reduce future threats and future impacts from 
climate change. But we are also taking a look at where do we 
need to be more proactive in our own efforts here? FEMA has 
established a Climate Enterprise Steering Group composed of 
components or members from across our agency to take a look at 
all of our programs to see where we need to be more deliberate 
and aggressive in our approach to climate change. This group is 
also part of the DHS Secretary's climate action group, so we 
can coordinate our efforts. FEMA has a strong role to play in 
fighting the climate crisis. This is the first step in us being 
able to accomplish that.
    Ms. Clarke. Thank you. The previous administration's 
failure to act on climate change is exactly why it is so 
important that Congress takes bold action now to tackle 
greenhouse gas emissions and protecting the American public 
from future climate impacts. That is why I recently introduced 
legislation with Senator Markey, H.R. 744, the FEMA Climate 
Change Preparedness Act, which would help FEMA address the 
natural disaster implications of climate change. Among other 
provisions, my legislation would direct FEMA to perform an 
assessment on the natural disaster risks that climate change 
poses on our Nation, as well as on our capacity to prepare for 
and mitigate climate impacts. Administrator, is there something 
that your agency is currently looking into and is this 
something that your agency is currently looking into and do you 
think that such a National assessment could be a useful 
undertaking?
    Ms. Criswell. I believe that we have an obligation right 
now to be looking at the future risks that we are going to 
face. A lot of our efforts, not just at FEMA, but across the 
emergency management community have often focused on historical 
risk. But we really have an opportunity and an obligation, 
frankly, to look at the future risks that we are facing and 
make sure we understand them and are investing in mitigation to 
reduce the impacts from those risks. So, I do believe that it 
is important for all of us to have that mindset as we go 
forward.
    Ms. Clarke. Well, Administrator, I look forward to speaking 
to you in depth about this legislation and look forward to 
supporting your work in this endeavor. With that, Mr. Chairman, 
I yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentlelady from Tennessee, Mrs. Harshbarger, for 
5 minutes. The gentlelady needs to unmute herself. Still not 
quite hearing you. It says you are unmuted now, maybe you can. 
We are having some technical difficulties. We will go to Mr. 
Clyde for 5 minutes.
    Mr. Clyde. Thank you, Mr. Chairman, for holding this 
important hearing and thank you, Administrator Criswell. I 
appreciate you being here and providing the information that 
you have.
    In March of this year, FEMA was deployed to help address 
the surge in illegal migrants at our Southwestern Border. 
Secretary Mayorkas has routinely stated that he would not say 
we have a crisis at the Southern Border, yet he deployed our 
Nation's emergency response agency, FEMA. So, ma'am, how would 
you describe the situation at the Southwest Border?
    Ms. Criswell. FEMA's role in the Southwest Border is, 
again, part of what we are really good at. We are good at 
coordinating across Federal agencies. In this case, we came in 
to help HHS and CBP with the execution of their mission. We 
only had a very small number of people that deployed in support 
of this mission and it was from a coordinating standpoint.
    Mr. Clyde. OK. So, but FEMA is only engaged when you have 
emergencies or crises. Is that not right? So, they would not 
have been engaged if we didn't have an emergency at the 
Southwestern Border?
    Ms. Criswell. Again, FEMA, they are good at coordinating 
Federal agencies for any type of an event or an incident. We 
often do this for planned events, as well as disasters or 
emergency responses. So, it is that coordinating capacity that 
FEMA brings in to support agencies in helping them establish 
their operational capability.
    Mr. Clyde. OK. So, would you or would you not call it an 
emergency at the Southwest Border?
    Ms. Criswell. Again, FEMA's role was really just to 
coordinate the Federal Government and the----
    Mr. Clyde. You are not going to answer my question. All 
right. So, FEMA's budget is already pretty thin, would you 
agree that the situation at the border has taken away resources 
from FEMA that could be better utilized elsewhere?
    Ms. Criswell. The role that FEMA played in that mission was 
very limited and we never had more than 100 staff deployed at 
any given time. Currently, we have less than 7 people, or 
approximately 7 people that are still supporting the 
coordination. That is a small number of people compared to what 
we have available.
    Mr. Clyde. OK. So, would your office be willing to provide 
us a written statement concerning the extent of your agency's 
mission at the border so that we in the committee can review 
how the border crisis has impacted your operations?
    Ms. Criswell. Yes, I will have my staff get that to your 
team.
    Mr. Clyde. OK, great. So, what funding from FEMA has been 
allocated to date to address the housing or the processing of 
illegal migrants? Has any?
    Ms. Criswell. FEMA is actually getting reimbursed from HHS 
for our support. There has been no funding allocated from the 
disaster recovery fund in support of that mission.
    Mr. Clyde. OK. How much has FEMA spent already though?
    Ms. Criswell. I don't have those numbers. We certainly can 
add that to the report that we give you.
    Mr. Clyde. OK. There have been articles in the news that 
the $86.9 million non-compete DHS contract to Family Endeavors 
is under a microscope now to see whether or not it was proper. 
Is FEMA helping ICE, HHS, or any other Government agency with 
contracts?
    Ms. Criswell. Sir, I am not familiar with that contract and 
our role, again, in supporting that mission is to help 
coordinate the Federal family that is involved.
    Mr. Clyde. OK. All right, with that, that is all the 
questions I have. I thank you for your support of the crisis at 
the Southern Border. We need to get that fixed. With that I 
yield back.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentlelady from Las Vegas, Ms. Titus, for 5 
minutes.
    Ms. Titus. Thank you, Mr. Chairman. It is nice to see the 
administrator again. We just visited with her in the 
subcommittee that oversees FEMA. So, thank you for being with 
us once more. I just want to ask you about something I raised 
with the Secretary so I won't belabor it, but it is about UASI 
funding. The President's budget proposed a $15.3 million 
decrease in UASI funding. I know that the criteria has been 
changed to focus on domestic terrorism and that makes this 
program even more important for communities like I represent, 
Las Vegas. So, I appreciate a commitment to try to work with me 
to be sure that we get the full funding or it remains a good 
resource and an effective one as we move into kind-of a new 
emphasis or a new direction.
    Ms. Criswell. UASI and the Homeland Security grant funding 
has done such an amazing job at building the capability and 
preparedness of our State and local jurisdictions. As we saw in 
the early days of the program, it was really about building a 
lot of capability and what we have seen over the past several 
years is that much of the requests that are coming in are for 
sustainment. So, the adjustments to the program themselves are 
minor and we do not feel will impact the ability to sustain the 
capabilities that have been built.
    But as you stated, the Secretary has also asked us to take 
a look at how we are evaluating risk in jurisdictions. Our team 
is doing that now so we can make sure that we are addressing 
the emerging threats that we are facing.
    Ms. Titus. Well, thank you. I appreciate that because it is 
really important to us in a place like Las Vegas where we have 
to keep our residents protected, but also 40 million visitors 
who come very year. They are coming back at a rapid pace.
    I would also ask you that whenever the President grants a 
Governor's request for FEMA's individual and household programs 
following a disaster, it currently provides very little 
assistance in the disaster area for people who were without 
homes before the disaster hit. Now, their situation is even 
worse. In Las Vegas, we have a rate of 228.6 per 100,000 people 
who are in this situation. So, you see it a lot across the 
Southwest. People go where it is warm where they can survive. 
Our non-profits do a lot of good work. Our local governments 
try to. But I wonder if there is some way FEMA in its new 
emphasis on equity and resilience could have a plan for these 
folks as well.
    Ms. Criswell. FEMA's programs and individual households 
program, you know, is designed to help people that have been 
impacted by disasters. The programs themselves aren't designed 
to make them whole. They do provide assistance to help with the 
temporary repairs. If they are not homeowners and they are 
renters, with some temporary lodging as they find new 
assistance. I think if I am understanding your question 
specifically may be more about the homeless population and 
these programs are not designed to support that.
    However, we do have the Emergency Food and Sheltering 
Program, which is one that is run by FEMA that can assist local 
communities. That grant funding is available to help them with 
the homeless situation. I am happy to get your constituents in 
touch with the people that run that program to see if there is 
a way that that can help.
    Ms. Titus. That would great. If we can reach out and get 
more information to help these folks in Las Vegas, I would 
really appreciate it. Thank you, Administrator. Mr. Chairman, I 
yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentleman from Florida for 5 minutes, Mr. 
Gimenez.
    Mr. Gimenez. Thank you, Mr. Chairman, and I also want to 
thank the Ranking Member Katko. Ms. Criswell, it is good to 
talk to a fellow former firefighter and fellow emergency 
manager. I served as a firefighter with the city of Miami and 
also the emergency management for the city of Miami. So, it is 
really good to talk to you.
    You stated that storms are getting more frequent and more 
severe. Do you have--could you submit some data to my office on 
the number of landfalling hurricanes since the year 1900 and 
their severity so that I can look at that data and see if, in 
fact, that is true?
    Ms. Criswell. Yes, representative. We can certainly get you 
that information.
    Mr. Gimenez. OK. Flood insurance, you know, remains a big 
issue in my district. What--you talk about certain caps for the 
Flood Insurance Program, what are those caps going to be? Is 
that by region or is there a hard cap Nation-wide for the Flood 
Insurance Program? And cost, cost to the homeowner.
    Ms. Criswell. Yeah, so, the new Risk Rating 2.0 Program is 
based--their insurance rates are based on their individual risk 
and with an increase that is not to exceed 18 percent per year. 
Again, based on the individual homeowner's risk, there is a 
certain amount of premium that they will pay as a cap. Again, 
based on their individual risk. That is once they reach that--
under the current program, there is no limit, but under the new 
program, there is.
    Mr. Gimenez. I mean, so there is not a hard cap Nation-
wide. It is based on the individual property? Or how--you said, 
yeah, there is a cap. So, what is that? Describe that for me. 
Really quick because I only have 5 minutes.
    Ms. Criswell. Yeah, absolutely. So, maybe two sides of 
this. There is a 18 percent cap per year that their rates can't 
go up more than 18 percent, which is set by Congress.
    Mr. Gimenez. Got it.
    Ms. Criswell. Then there is a maximum amount of what their 
insurance policy will be and when they reach that, it won't go 
any higher.
    Mr. Gimenez. I know, but that--again, the question is, is 
that on an individual property or is it a Nation-wide cap that 
no insurance policy can be say more than $5,000?
    Ms. Criswell. No, it is based on their individual risk for 
their home.
    Mr. Gimenez. So, it could be theoretically that can be 
$50,000, $100,000, $200,000. It all depends on the home itself.
    Ms. Criswell. It does depend on the home itself. But we 
certainly can get you more specifics on that.
    Mr. Gimenez. OK. All right. By the way, I want to thank 
FEMA for their response to the Surfside incident. That is a 
town that I used to be the mayor of that county. So, thank you. 
How many US&R teams does FEMA have in support right now?
    Ms. Criswell. Currently, the 2 teams that are located in 
Miami and Miami-Dade are part of the National system, and they 
were the first teams that were involved. Again, it is a real 
good example of how important these teams are to be embedded 
within the first responder community so they can respond 
quickly. So, those 2 teams are already activated. We have 
additional teams that we are working right now with the local 
incident commander to determine what they would----
    Mr. Gimenez. Ma'am, I know all that. Ma'am, I know all 
that. I mean, I actually created the second team, OK? I want to 
know how many teams you have in the system? That is the 
question.
    Ms. Criswell. Oh, in the system.
    Mr. Gimenez. How many are there in the US&R system, yeah?
    Ms. Criswell. How many--I believe--I don't have the exact 
number right in front of me, sir. I am sorry. I can get that to 
you.
    Mr. Gimenez. That is fine. OK, that is fine. All right. 
Now, when it comes to hurricane mitigation, we have more 
communities, more people living on the coast now than we did 
say in the year 1900. When you say that there are more, you 
know, their severity of storms and their frequency, are you 
talking about the actual number or are you talking about the 
dollar amount of the damage that they cause?
    Ms. Criswell. Sir, I think it is both, right? I think that 
we are seeing more billion-dollar disasters than we have seen 
in the past. We are seeing more storms brew. More hurricanes in 
the Atlantic. We are seeing an increasing number of wildfires 
across the west. So, I think it is a combination of both.
    Mr. Gimenez. Well, I mean, your being a firefighter, you 
know that fire needs 3 things. It needs oxygen. It needs an 
ignition source. It needs fuel. So, how does climate change 
factor into those 3 things?
    Ms. Criswell. For the wildfire season, the increase in the 
number of wildfires that we are seeing is the fact that the 
vegetation is more dried out than it has been in the past, 
which increases its ability to have the ignition source more 
quickly.
    Mr. Gimenez. But it could also be that there are--there is 
lax management of those forests in that they are not being 
cleared the way they should be. Because you and I both know as 
firefighters that if you take away the fuel, you won't have 
these kinds of fires, right?
    Ms. Criswell. Exactly. The mitigation that we talk about in 
trying to reduce the impact, right? So, the more that you can 
mitigate the potential impacts that you are going to see, the 
less that you are going to have to respond.
    Mr. Gimenez. Right, we can't take away the oxygen and we 
can't take away the ignition source. You know, that is 
problematic. I mean, we try to. At the end, it is always about 
the fuel. The fuel is the vegetation. If we start clearing that 
out, we may actually start to see lessening of these 
devastating forest fires. Could you agree with that?
    Ms. Criswell. I could agree with that.
    Mr. Gimenez. OK. What if we----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Gimenez. My time? Thank you very much and I yield the 
rest of my time, which is zero. Thank you.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Florida for 5 minutes, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. 
Administrator, it is great to see you again. As a native 
Floridian and former first responder, I am no stranger to 
responding to and living through disasters. But as you know, 
Administrator, we find ourselves in unfamiliar territory with 
the tragedy in Surfside, Florida. Certainly, our thoughts are 
with the victims, the families, our first responders. I would 
like to thank you and your workforce for immediately deploying 
to south Florida being there on the ground. I also want to 
commend you on the strong partnership that FEMA has and has had 
with State and local emergency responders. We know that it is 
essential to preserving, protecting a life and it is 
appreciated, I believe, by all here today.
    Administrator, the 2020 Atlantic hurricane season was the 
most active and the fifth-costliest Atlantic hurricane season 
on record. The season was so active in fact that we ran out of 
names and had to use the Greek alphabet. This year, the 
National Oceanic and Atmospheric Administration has predicted 
another active season, as you well know. In fact, we have 
already seen up to 3 hurricanes from the Atlantic. With 
hurricane season in full swing, and I know we talked somewhat 
about this today, but, you know, COVID-19 was also a curveball 
with all that you have to juggle as well. So, with the season 
in full swing, how are you balancing these many times 
unpredictable National disasters along with still being pretty 
much involved in the response to COVID-19?
    Ms. Criswell. It is a great question and our hearts do go 
out to those that are still suffering in Miami right now. As we 
see, you know, the threats that we are facing continue to 
change. Our normal cycle of disaster response isn't just in the 
summer anymore. It is really year-round. So, as we prepare for 
this season, for this peak that we will see over the 
summertime, we have done a very deliberate effort to reduce the 
number of staff that we have deployed to some of our on-going 
operations and make sure that they have the opportunity to rest 
and get reset so we have the appropriate levels to respond to 
what we might see over the coming months.
    But we are right now taking a big look at what is it going 
to be for us in the future and how do we want to start to 
posture ourselves for this more year-round response. We are 
doing an assessment to see what it would take for us to build a 
true readiness cycle that can support a continuous rotation of 
personnel so they have the adequate rest and recovery they need 
and we always have a number of sufficient personnel to support 
these emerging threats that we continue to face.
    Mrs. Demings. Thank you so much, Administrator. FEMA has 
historically had challenges with this disaster contracting 
workforce levels. In its 2017 after-action report, FEMA 
indicated that its disaster contracting workforce was strained 
due to the unprecedented number of contracting actions it had 
to process during the 2017 hurricane season. This is 
understandable considering FEMA obligated $4.5 billion for the 
2017 disasters. Whereas, in the 3 fiscal years before then, you 
only had to obligate about $1.3 billion. To date, as you know, 
FEMA has obligated nearly $48 billion in response to COVID-19 
alone. This is astronomical compared, of course, to previous 
years. Where do FEMA's contracting workforce levels stand now? 
Does FEMA have the workforce it needs during the 2021 disaster 
season?
    Ms. Criswell. The contracting workforce is such a critical 
part of what we do because we need to make sure that we have 
the right tools and the people to execute those tools to 
support disaster response. I don't have the specific numbers of 
our contracting workforce. I am happy to have my team get back 
to you. But we are looking across all of our cadres where we 
have seen a reduction in the number of personnel and doing some 
concerted efforts to make sure we are recruiting quality people 
to come in and serve what I think is the best agency the 
Government has.
    Mrs. Demings. Finally, Administrator, with the limited time 
I have, I do realize that human beings are the most precious 
resource. Sometimes you may not always feel like it, but human 
beings are the most precious resource that we have. We know 
that FEMA ranked 322 out of 420 agencies in terms of employee 
morale. I know the Chairman talked a little bit about the 
workforce, but could you very quickly explain some of the steps 
you are planning to take to address specifically, employee 
morale?
    Ms. Criswell. The workforce is my No. 1 priority. We have 
such an important mission that we can't fail at. The way to do 
that is to make sure that we have a qualified, trained, and 
supported workforce so they can execute their mission. We have 
done a number of things to reach out to our employees and I 
think one of the biggest things that we have done is created 
these employee resource groups where we get input from our 
employees and what their needs are and how we can better 
support them in accomplishing their mission. We are also going 
to continue to make sure that we have enough personnel and we 
provide the right training and resources and support that 
employees need to conduct their jobs effectively and 
efficiently. The other piece to add to that is making sure that 
our workforce is diverse and inclusive and so we can represent 
the people that we serve.
    Mrs. Demings. Imagine that. Thank you so much, 
Administrator. Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes Mrs. Harshbarger from Tennessee for 5 minutes. We 
can't hear you still. No. We are going to come back to you 
again. The Chair recognizes Mr. LaTurner from Kansas for 5 
minutes. Can you unmute yourself, Mr. LaTurner? I see you going 
on and off. Well, we will go back to Florida, Mrs. Cammack, for 
5 minutes.
    Mrs. Cammack. Can you all hear me?
    Chairman Thompson. Gotcha.
    Mrs. Cammack. Woo. Val's laughing. Oh, man. Well, I 
appreciate it, Mr. Chairman. Thank you so much. Good to see you 
again, Administrator Criswell. I am going to jump right in on 
questions because I have got a lot and I don't think I will be 
able to make it through them all.
    So, I am going to start with the first question being your 
FEMA all hands on deck, meaning you identified employee burnout 
as one of the major issues. We talked about that last week. You 
had mentioned the importance of workforce readiness in your 
testimony and then again when we were chatting on Friday.
    Now, I had asked this question to Secretary Mayorkas a 
couple weeks ago and again several months ago. I am just kind-
of looking for some clarity on this. When I had asked if FEMA 
had the resources that it needs to effectively respond to the 
pandemic, the border crisis, and upcoming storm season at that 
point, he had stated that FEMA had every resource that it 
needed in order to do that. Do you agree with the Secretary's 
assessment that FEMA is not in need of any additional 
resources?
    Ms. Criswell. So, as we prepare for this season, we have 
the resources that we need to support the on-going responses 
that we are currently running, as well as what we expect. I 
think as we discussed and we are seeing this year-round 
response to disasters and new emerging threats, we are doing an 
assessment to see how we can better prepare and have a stronger 
readiness cycle that gives our employees more opportunities for 
rest and reset so they are not deployed so much continuously.
    Mrs. Cammack. OK. So, just to summarize. Yes, FEMA has all 
the resources that it needs to do the job, the workforce, 
everything, personnel, border presence, pandemic, incoming 
Delta variant, tornados, hurricanes, wildfire season, 
everything.
    Ms. Criswell. I believe that we are well-postured to 
support that. We do have a request for additional resources in 
our fiscal year 2022 budget as well to help increase that 
readiness capability.
    Mrs. Cammack. OK. Now, you guys are seeing the distribution 
of $2 billion in COVID-19-related funeral assistance. This is 
the largest Funeral Assistance Program that FEMA has ever 
handled. As of June 28, approximately $447 million has already 
been distributed to 66,000, almost 67,000 people. Now, what are 
doing to make sure that the aid gets to those that are truly in 
need in this very tough situation and that there aren't bad 
actors that are working to exploit the system?
    Ms. Criswell. The Funeral Assistance Program is truly 
unprecedented. It is on a scale like nothing that we have done 
before. As we were putting our plan in place for how we were 
going roll this program out, we knew that there was going to be 
a lot of opportunities for fraud. So, we did put measures in 
place to help reduce the potential for fraud and we are seeing 
very low incidents right now of fraudulent claims. I would say 
one of the things that we are doing to make sure that everybody 
gets assistance as well is we are doing--they are registering 
through the 1-800 number directly. That also helps to reduce 
fraud by not going on-line. But then we have personnel that are 
talking to individuals and helping them work through the 
paperwork requirements to provide the documentation needed to 
get that assistance.
    Mrs. Cammack. Is there any follow-up from FEMA once the 
applicants go through the process to just kind-of a trust but 
verify?
    Ms. Criswell. Yeah, I mean, that is part of the process, 
right? So, as an individual calls the 1-800 number to get 
assistance, we work with them to get the appropriate paperwork. 
We verify that paperwork to make sure that it's authentic and 
then work with them to get any additional resources or any 
additional paperwork they need until they finally get their 
claim settled.
    Mrs. Cammack. OK, excellent. Thank you. Something else that 
I had asked Secretary Mayorkas a couple weeks ago that he was 
going to, I think, ask you about was the Emergency Food and 
Shelter Program that FEMA has. So, I have been to the border a 
couple of times this year and I have actually been on a plane 
where I recognized the migrants that we had picked up with 
Border Patrol in the days leading up to my flight. Now, it is 
my understanding that the Emergency Food and Shelter Program 
that FEMA has, has been supporting the travel costs for these 
migrants. How much of this program has been expended on migrant 
travel?
    Ms. Criswell. As you stated, the Emergency Food and Shelter 
Program is a grant program available through FEMA for non-
disaster-related expenses. I don't have the specific 
information. I am aware of the flight that you mentioned. I 
don't have the specific information about the costs that were 
spent, but it is something that is eligible through this 
program as its administered by the local volunteer agencies.
    Mrs. Cammack. Could you follow up? Because I know my time 
has expired. Could you follow up with me on the total number of 
dollars that have been expended on migrant travel this year?
    Ms. Criswell. We will certainly follow up on that. I would 
just add that Congress did appropriate $110 million for this 
program to assist.
    Mrs. Cammack. All right, thank you.
    Chairman Thompson. The gentlelady's time has expired.
    Mrs. Cammack. With that, I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
California for 5 minutes, Mr. Swalwell.
    Mr. Swalwell. Thank you, Chairman. Thank you, 
Administrator. Before I get to my questions, I want to thank 
FEMA for standing up its Oakland Coliseum vaccination site 
where thousands of Bay Area residents were vaccinated. It was a 
real success. I was able to meet with your team on the ground 
there early on after having the vaccine. I would say it is the 
second best thing that has happened at the Oakland Coliseum 
this year other than the third best team in baseball, the 
Oakland A's. So, thank you to FEMA for that.
    But, Administrator, my district in California has suffered 
from wildfires in the past year as well as yesterday we had a 
4.1 earthquake in the city of Castro Valley. So, we face a 
range of natural hazards and we found that climate change is 
exasperating many of these disasters and the effects.
    I know you understand as a former firefighter the 
importance of resiliency and pre-disaster mitigation. 
Congressional action over the past few years has emphasized 
pre-disaster mitigation. FEMA has put a greater emphasis on 
pre-disaster mitigation through the Building Resilient 
Infrastructure and Communities Program, the BRIC program. A 
total of $500 million was available in 2020, and President 
Biden has approved for FEMA to provide $1 billion for this 
fiscal year. Now, it has been an effective way to support pre-
disaster mitigation, but we were only able to fund $500 million 
of the approximately $3.6 billion requested. So, what do you 
think is the best way to address the demand for pre-disaster 
mitigation funding?
    Ms. Criswell. I am sorry, did you hear what I started there 
with? OK.
    Mr. Swalwell. I didn't. Go ahead.
    Ms. Criswell. I think we weren't unmuted. I apologize. Pre-
disaster mitigation funding is a critical component to our 
ability to reduce the impacts that we are seeing from climate 
change. We were very excited by the authorities that were given 
to us in the Disaster Recovery Reform Act to be able to 
implement and execute the BRIC program, the Building Resilient 
Infrastructure and Communities Program. As we saw with the 
first year, it was amazing what the amount of need was that was 
out there as you stated with $3.6 billion in applications. I 
think where we are going is now that we have additional funding 
that was available this year, double what we had last year, $1 
billion. We are going to continue to be able to address these 
projects to do the system-wide mitigation instead of a more 
incremental approach that we have done in the past. But BRIC is 
just one of the programs that we have and so, if there are 
applications that were not selected during this program, we 
also have our Hazard Mitigation Grant Program, post-disaster 
grant, that individual or State and local jurisdictions can 
apply for as well. That comes after every disaster.
    We have recently also created hazard mitigation funding 
eligibility for fire management assistance grants, which 
specifically goes to those communities that were impacted by 
the fires to increase their ability to reduce risk.
    Mr. Swalwell. Now, Administrator, to qualify for BRIC 
funding, a State must have issued a major disaster declaration 
in the past 7 years, but as you know, because of the COVID-19 
pandemic, every State has been under a major disaster 
declaration. So, has the anomaly of simultaneous major disaster 
declarations across all 50 States because of the pandemic 
affected FEMA's administration of the BRIC funding?
    Ms. Criswell. No, it hasn't. I think it just gives us 
greater opportunity now to be able to invest in communities 
across the country to help them reduce the impacts from these 
threats that we are facing.
    Mr. Swalwell. Great. Well, we are going into, sadly, 
another fire season. On top of that a drought. As I said, a 
reminder yesterday that we are at risk of a, you know, a major 
earthquake in the Bay Area. So, we need you all more than ever. 
Welcome aboard on the job. Again, your team on the ground in 
San Francisco really did an excellent job in getting our 
community vaccinated. We have over 80 percent of Alameda County 
has received at least one vaccine and that is a leader in the 
country, in part because of FEMA's work. So, thank you very 
much.
    Chairman Thompson. The gentleman yields back?
    Mr. Swalwell. Yes.
    Chairman Thompson. The Chair recognizes Mrs. Harshbarger, 
again. I think we still have a----
    Mrs. Harshbarger. OK. I have got you on a phone line now.
    Chairman Thompson. OK.
    Mrs. Harshbarger. Are you good?
    Chairman Thompson. Mrs. Harshbarger, I apologize. The 
gremlins are still with us.
    Mrs. Harshbarger. OK. Can you hear me on the phone line?
    Chairman Thompson. We can hear you on the phone line.
    Mrs. Harshbarger. OK. Let's just do it that way. Who knows 
what is going on. Hey, if it was as easy to fix, I should call 
FEMA, maybe they can fix that. So, anyway, thank you, Chairman 
and Ranking Member and Madam Administrator.
    I just wanted to talk a little bit about something some of 
my colleagues have already talked about and that is the 
disaster relief, the disaster declaration, for some of these 
smaller counties. I have a small county in Unicoi, Tennessee 
and they had a flood event in March 2020 and they just received 
money as of last month due to that flood that damaged some of 
the roadways. You know, they weren't able to meet your 
threshold and they finally did the paperwork.
    My concern, even after they were approved, it took 8 months 
to receive their money and, you know, in a small county when 
you have maybe 2 employees, it takes one doing this full-time 
in order to do the paperwork to get the money from those 
disasters. Its all the documentation, things like that. So, I 
just want you to be aware of that, Madam Administrator, that 
sometimes with these smaller counties, it took over a year to 
get that money to them. They had to figure out how they are 
going to budget that in order to make those road repairs. So, 
that is a concern.
    I kind-of want to switch gears and talk about our National 
stockpile problems. COVID-19 made those very, very apparent, 
you know, as far as supply chains are concerned and these 
problems with the supply chains severely impacted the ability 
of the country to respond to the pandemic and it put our 
economic and National security in jeopardy. I can tell you this 
as being a pharmacy owner, in 3 weeks I could not get 
medications. I couldn't get hydroxychloroquine. I couldn't get 
the powder to make it. I couldn't get supplements, vitamins. 
That is just in a 3-week period. That is critical. I consider 
that critical infrastructure as far as the medicine goes. It is 
imperative that we have those.
    As a Nation we left a clear understanding of the supply 
chain outside of the Department of Defense environment. The 
public safety industrial supply chain must be comparable to how 
the DOD manages the defense industrial base. That includes 
things like procurement, acquisition, long-term contracting, 
asset viability, material distribution, and tracking of 
emergency threats that proactively support the supply chain 
assurance. I guess my question is, core capabilities like 
supply chain security and supply chain risk management have 
habitually been underinvested in and how should our Nation 
determine in detail and understand the interdependencies of the 
public safety industrial supply chain and the impacts it will 
have on operations if interrupted?
    Ms. Criswell. What we learned through COVID-19 is truly 
how, as you stated, critical our supply chain is. It is a piece 
of our critical infrastructure, but really just how fragile it 
can be as well. You know, as we were working through our 
ability to maximize and support the supply chain to make sure 
that we could keep resources moving, we learned a lot of 
lessons about our role and how we can interact with the private 
sector.
    I think that we have two roles. One is, you know, how do we 
during disasters make sure we get the supply chain up and 
running quickly so they can continue to bring supplies in? 
Because FEMA can never replace what the private sector brings 
to the table. But also, how can then we integrate the private 
sector into our operations to better support the initial 
response needs? FEMA has started a lot of conversations across 
the private sector in different sectors, health care, housing, 
and so forth, to see how we can work better together to improve 
the resiliency of the supply chain to make sure that we don't 
have--or we are reducing any potential impacts to disrupting 
the supply chain.
    Mrs. Harshbarger. OK. Thank you for that. Well, after I 
have had such microphone troubles, I will just yield back, 
Chairman. Thank you.
    Chairman Thompson. The gentlelady is very kind. Thank you 
much. The Chair recognizes the gentlelady from California for 5 
minutes, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman, and thank you for 
holding this hearing. Thank you, Administrator, for being with 
us today and all your work.
    The Trump administration took unprecedented steps to 
criticize natural disaster survivors and continuously 
threatened to deny or withdraw aid to jurisdictions such as 
Puerto Rico and California, while praising and announcing more 
money for areas that had a large number of Trump supporters. 
Their actions threatened the recovery process for disaster 
survivors. While it is the Executive branch that carries out 
various response and recovery programs to help communities 
rebuild after a disaster, it is Congress' responsibility to 
conduct oversight to ensure the American people are receiving a 
fair, effective response from the Federal Government.
    It is not only important for the disaster survivors 
currently putting their lives back together, but for the future 
survivors who will benefit from a response improved by lessons 
learned. The Trump administration's politicization of disaster 
assistance stands against everything we, as public servants, 
stand for. Administrator, what effects does the politicization 
of disaster relief have on affected communities?
    Chairman Thompson. Start your answer again. We kind-of had 
a delay.
    Ms. Criswell. Understood. Disasters that impact 
communities, they do not discriminate whether you are 
Republican or Democrat. FEMA's assistance is not restricted in 
any way based on that. We provide assistance to communities 
based on their need and one of the things that we have learned 
through COVID-19 is our ability to really better understand and 
identify our underserved populations to make sure that we are 
getting them the assistance they need, but also making sure 
that they understand how to access that assistance. That is 
FEMA's role. We are going to help people before, during, and 
after disasters making sure that they get what they need to 
recover from whatever that event was.
    Ms. Barragan. Do you agree it would dangerous if we started 
to politicize who gets disaster relief?
    Ms. Criswell. It would absolutely be dangerous. We should 
be basing disaster need--disaster assistance on the needs of 
the community and the impacts that they experienced.
    Ms. Barragan. OK, well, thank you. How can we assure that 
never happens again that we aren't politicizing the need, 
disaster need?
    Ms. Criswell. You know, the policies that FEMA has and the 
Stafford Act that guides our ability to provide assistance 
clearly sets out how we provide assistance and as long as we 
are following the guidance set forth in there, we will be able 
to continue to provide assistance to all communities that are 
impacted.
    Ms. Barragan. Well, thank you. Administrator, I also want 
to thank you for the work that you have done in working across 
agencies to help at the Southern Border. I have been there 
first-hand. I have seen what the difference has been in getting 
children out of, you know, Border Patrol custody and into HHS 
and the role that you all played and how it has been very 
helpful. So, I want to thank you for that.
    My next question is about, you know, reports that the 
sites, the FEMA-assisted sites of the mass vaccination centers 
are winding down. They are coming to a close. What is FEMA's 
role moving forward in assisting in the vaccination effort? Is 
there any consideration being given on reopening these mass 
vaccination centers when maybe say boosters are going to be 
necessary for, you know, the population?
    Ms. Criswell. FEMA has supported the vaccination effort in 
a variety of different ways. We are supporting approximately 
2,100 community vaccination centers across the country, 39 of 
which were Federally-run community vaccination sites. Our on-
going support for the 2,100 continues by providing financial 
assistance, personnel, resources as needed based on what the 
community needs and how they are doing with their outreach to 
their populations to get them vaccinated. We have wound down 
our 39 sites and primarily that was based on the fact that we 
saw limited numbers of people coming and more of the population 
that were going to pharmacies, their doctor's office, and other 
places to get the vaccine.
    You know, as we look to the future, we will be ready to 
stand up additional sites if needed. If there is a booster that 
is required, we remain flexible to be able to support this on-
going effort to get America vaccinated and whatever that might 
look like in the coming months.
    Ms. Barragan. Well, thank you, Administrator. FEMA has 
literally helped save lives by undertaking this logistical 
challenge of getting the vaccine out and we have seen the 
difference that you and this administration have made. So, 
thank you. With that, Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentleman from Kansas, Mr. LaTurner, for 5 
minutes.
    Mr. LaTurner. Thank you, Mr. Chairman. Apologize for the 
technical difficulties we had earlier. Thank you to you and 
Ranking Member Katko for holding this hearing. Administrator, I 
am very pleased that you are with us today. We like to say in 
Kansas that you can experience all four seasons in the same 
day. Along with that weather comes disasters with tornados, 
flooding in the wet season, wildfires in the dry season. We 
need FEMA to be ready and able to support those communities in 
Kansas and across our country that are affected by disasters of 
all sizes. I also recognize the role FEMA has played in 
providing resources and relief across the country during the 
COVID-19 pandemic, which we all hope we are nearing the end of.
    I have a couple of questions for you. The first is in the 
President's fiscal year 2022 budget, he includes just over $100 
million to support, sustain, and develop new IT initiatives. 
Given the past issues FEMA has had with safeguarding personal 
information, could you give us the specifics on the IT 
initiatives that FEMA will be focusing on?
    Ms. Criswell. I will certainly have my team get back with 
some specifics for you. But what I will say generally is that 
some of the IT initiatives we are focusing on is modernizing 
our IT infrastructure as well as our grant system so we can 
make it easier for State and local communities to apply for 
assistance through that. Those are some very general big 
picture pieces of our IT infrastructure that we are requesting 
funding for. But I will certainly have my team get back to you 
with some specifics.
    Mr. LaTurner. I appreciate that, Administrator. Since the 
Nation-wide emergency was declared on March 13, 2020, there was 
a lot of confusion initially as to who was leading the 
response, FEMA or HHS. As FEMA took the lead, questions 
remained as to who should be charged with leading and managing 
Federal effort during a prolonged pandemic. While FEMA 
certainly has the capability to coordinate resources and 
manpower, what should FEMA's and HHS's respective roles be for 
future similar events?
    Ms. Criswell. It is a very good question. You know, FEMA is 
very good. What we excel at is being able to collaborate across 
the Federal Government to bring the right stakeholders together 
to solve some of the toughest problems that we have been facing 
in recent years. I think that we have some work to do to make 
sure that we are working with our partners across the Federal 
Government to better understand what the capabilities are and 
where the roles and responsibilities need to be delineated. So, 
I commit to being able to work across the Government helping to 
better understand capacity and where the roles and 
responsibilities need to be defined.
    Mr. LaTurner. Administrator, could you get a little more 
detailed on that? Do you think that that needs to take shape in 
the form of legislation? Are those conversations that you are 
currently having now or ones that you plan on having in the 
future?
    Ms. Criswell. They are conversations that we are having now 
as we work with HHS in our continued response to COVID-19. If 
there is a point in time where I think it needs legislation, I 
am certainly happy to get back with you on how we would make 
that happen.
    Mr. LaTurner. As you know, a number of State Governors are 
moving to end their State's incident period for COVID-19 major 
disaster declaration. Does FEMA currently have a projected time 
line for when the COVID-19 major disaster declarations might 
end?
    Ms. Criswell. We are reviewing that currently on when that 
might happen. It is not going to happen in the very near 
future. We will make sure that we are providing ample notice 
for jurisdictions so they understand what the impacts of that 
might be.
    Mr. LaTurner. I appreciate that. You touched on this a 
little bit earlier, but if you could go into a little more 
depth. Ending the States' COVID-19 major disaster declarations 
affect the resources available to States and what resources 
will still be available to States under the Nation-wide 
emergency declaration. After this is over, it would be nice for 
States to have some idea of what is going to be available to 
them.
    Ms. Criswell. Right. We are seeing States end their 
incident periods or end their emergency declaration. We are 
having conversations with them through our regional 
administrators on what that means as it relates to the National 
disaster, the major disaster declaration in our on-going 
incident period. So, we will continue to have those 
conversations. Our regional administrators have been reaching 
out to our States continuously to help understand some of the 
guidance and what the future impacts might be as we continue to 
refine the future of the disaster declaration.
    Mr. LaTurner. Are you doing personal outreach to any of the 
States or comprehensive calls that Governors and their teams 
are able to participate in, or is it done region by region 
primarily?
    Ms. Criswell. So, we like to have our regional 
administrators do the majority of that outreach, but I have 
been communicating with the National organizations that bring 
together the leadership from across the country to answer some 
of these same questions.
    Mr. LaTurner. OK. Administrator, I appreciate your time and 
I yield back, Mr. Chairman.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentleman from New York for 5 minutes, Mr. 
Torres.
    Mr. Torres. Good morning, Administrator. You were the New 
York City commissioner for emergency management for the 
cataclysmic challenges confronting Health and Hospitals during 
COVID-19. As you know, they may be no health system in the 
United States that came under greater strain during COVID than 
Health and Hospitals. New York State was the epicenter of the 
first coronavirus wave and Health and Hospitals as a safety net 
health system was the hardest hit not only by the rapid influx, 
but also by the sheer intensity and complexity of coronavirus 
cases.
    FEMA provides reimbursements to ``expanded medical 
facilities.'' As you know, the Health and Hospitals had to 
expand their medical facilities and contract out surge staff in 
order to keep pace with what the New York Times infamously 
described as a ``apocalyptic'' coronavirus surge. Yet, 
inexplicably, FEMA refuses to reimburse Health and Hospitals 
for that capacity expansion. Can you explain to me the 
inexplicable decision to deny or delay reimbursement for Health 
and Hospitals?
    Ms. Criswell. Representative Torres, yes, I was there. It 
was the most challenging year that I have gone through and I 
worked closely hand-in-hand with my colleagues at Health and 
Hospitals as we were expanding that capacity. It was not just 
in Health and Hospitals, but the alternate care sites that we 
set up across the city to support the numbers that we were 
projecting. I don't have the specifics of the denial that you 
are talking about, but those types of costs are eligible costs 
under the disaster declaration. So, let me get more information 
about the specifics of what you are talking about and I will be 
happy to get back to you with any information.
    Mr. Torres. Absolutely. I just want to read for you a 
letter from the CEO of Health and Hospitals, Mitchell Katz, to 
your agency, to you directly. ``FEMA Region 2 asserts that 
Health and Hospital facilities were not expanded in their 
entirety and that Health and Hospitals must prove which 
portions of our systems were expanded versus unexpanded and 
then the contracted surge staff to only expanded areas in order 
to be eligible for FEMA funding. As Health and Hospitals has 
explained previously in writing, and at multiple working 
sessions with FEMA Region 2, this is neither required by FEMA 
guidance nor feasible. Moreover, it does not reflect the 
operation or clinical realities experienced by Health and 
Hospitals during the height of the pandemic. Given the terrible 
volume and intensity of the first wave of COVID, all Health and 
Hospital facilities were expanded in their entirety to battle 
the virus.''
    [The information follows:]
                   Letter From NYC Health + Hospitals
                                     June 11, 2021.
Deanne Criswell,
Administrator, Federal Emergency Management Agency, 500 C Street S.W., 
        Washington, DC 20024.
Re: NYC COVID-19 Emergency Response (DR-4480-NY): H+H Contracted Surge 
Staff Eligibility

    Dear Administrator Criswell: On behalf of New York City (NYC) 
Health + Hospitals (H+H), I am respectfully submitting information to 
support the existing H+H request for FEMA reimbursement of necessary 
COVID-19-related expenditures (DR-4480-NY). Specifically, H+H is 
seeking reimbursement for the temporary staff needed to battle the 
virus in the first and hardest hit part of the Nation, from March to 
August 2020. This request is in keeping with FEMA policy as well as 
general principles of equity.
    This letter will summarize the documentation that H+H has already 
provided to FEMA to demonstrate that contracted surge staff 
necessitated by COVID-19 is eligible under current policy,\1\ which 
states:
---------------------------------------------------------------------------
    \1\ FEMA Policy No. 104-21-0004, Coronavirus (COVID-19) Pandemic: 
Medical Care Eligible for Public Assistance, Section C.2.

    ``FEMA may approve work and costs associated with temporary medical 
facilities or expanded medical facilities when necessary in response to 
the COVID-19 Public Health Emergency. These facilities may be used to 
treat COVID-19 patients, non-COVID-19 patients, or both, as 
---------------------------------------------------------------------------
necessary.''

    H+H provided FEMA with justifications showing that its hospitals 
constituted ``expanded medical facilities'' from March to August 2020 
due to its system being overwhelmed by COVID-19. Unfortunately, FEMA 
Region II asserts that H+H facilities were not expanded in their 
entirety and that H+H must prove which portions of our system were 
expanded versus unexpanded, and then tie contracted surge staff to only 
expanded areas in order to be eligible for FEMA funding. As H+H has 
explained previously in writing and at multiple working sessions with 
FEMA Region II, this is neither required by FEMA guidance nor feasible. 
Moreover, it does not reflect the operational or clinical realities 
experienced by H+H during the height of the pandemic. Given the 
terrible volume and intensity of the first wave of COVID, all H+H 
facilities were expanded in their entirety to battle the virus. As the 
President and CEO of H+H and one of the leaders in NYC's response to 
COVID-19, I attest to the immutable fact that it is not practically or 
operationally possible to identify discrete expanded and unexpanded 
facility parts due to the lack of available, rapid testing and the risk 
of transmission during the first wave of COVID-19 in NYC.
    We request an opportunity to meet and discuss concerns with HQ 
Office of Response and Recovery (ORR) leadership on this critical 
matter as it relates to disaster-specific policy created to support 
COVID-19 emergency work. NYC believes that the applicable policy covers 
the surge staffing H+H was forced to contract out for due to our 
facilities being overwhelmed by the pandemic.
    H+H has incurred approximately $2 billion in expenses on our 
response to COVID-19, and we ask that immediate action be taken to 
provide critically-needed cashflow to our safety net system. Even as we 
work with you to pursue the reimbursement to which we are entitled, we 
request that FEMA obligates the $1.19 billion version request that H+H 
has submitted and allow a drawdown of $354 million based on the $621 
million financial documentation provided. Here is a brief chronology:
    October 2020.--H+H submits for preliminary FEMA review $864M of 
        contract costs for clinical surge staff required to meet the 
        need at overwhelmed H+H facilities from March to August 2020.
    December 15, 2020.--H+H submits a formal amendment to Project 
        134894 to FEMA for $864M of this temp staffing contract work, 
        of which $621M was fully reconciled with contracts and 
        invoices.
    January 15 and 29, 2021.--H+H met with FEMA Region II and NYS to 
        discuss why this work is eligible since all facilities were 
        expanded and staffing was necessitated by COVID-19.
    February 24, 2021.--H+H submits two justifications to FEMA 
        supporting its surge staff claim:
    <bullet> Justification that H+H facilities were expanded in their 
            entirety; and
    <bullet> Projected needs analysis to support why expansions were 
            required due to patient load.
    March 11, 2021.--FEMA responds saying that only certain parts of 
        H+H facilities were expanded, and surge staff are only eligible 
        if tied to those parts of H+H facilities.
    April 6, 2021.--H+H provides another letter to FEMA with additional 
        justification explaining why H+H facilities were considered by 
        its clinical leadership to be expanded in their entirety.
    April 13, 2021.--Region II tells H+H that it will not accept the 
        argument that H+H facilities were expanded in their entirety.
    April 30, 2021.--Region II meets with H+H to ask additional 
        questions about how it believes H+H might parse its facilities 
        into expanded versus unexpanded parts. H+H reiterates that this 
        is an artificial way to evaluate its facilities March to August 
        2020.
    NYC was the first epicenter of the COVID-19 outbreak in the United 
States (US), and our H+H facilities soon served as the epicenter of the 
epicenter, treating all patients without regard to their ability to 
pay. Recall that NYC was the first American city to experience the 
rapid and devastating COVID-19 spread, so there was no rulebook or 
script to follow: We in NYC and at H+H in particular were setting the 
standards for the Nation. Practically, H+H--as NYC's safety net public 
health care provider that accepts anyone that seeks treatment--faced an 
outbreak of a virus about which there was no existing knowledge, no 
existing protocols specific to the implications of the COVID-19, wholly 
insufficient testing capacity, no proven treatments or vaccine for the 
virus, and limited availability of Personal Protective Equipment (PPE) 
due to the global supply chain collapse.
    In the earliest stages of the pandemic, despite requests from NYC 
to the CDC to deploy COVID-19 testing kits to public health 
laboratories across the country, all testing capacity existed solely 
within CDC headquarters. This required shipping all test samples to 
Atlanta for analysis. When CDC test kits arrived at the NYC Public 
Health Laboratory on February 8, defective testing reagents rendered 
the test kits unusable. Weeks passed without any functional testing 
capacity available outside of the CDC. By early March, both the NYC 
Public Health Laboratory and the State Department of Public Health 
Wadsworth Center received FDA Emergency Use Authorization (EUA) for 
their own COVID tests. However, National shortages of testing supplies, 
including swabs and reagents, continued to significantly limit testing 
capacity within the first wave of the pandemic in NYC.
    During the period of performance in question, due to the lack of 
available rapid testing for patients, the high risk of transmission, 
the shortage of PPE, the number of medical personnel falling ill, and 
the effort to stem the rapid spread of the virus, H+H facilities worked 
on the presumption that virtually every individual entering H+H 
hospitals seeking treatment carried and had the potential to spread 
COVID-19. This was not just based on theory: A State-wide Executive 
Order directed the suspension of non-essential elective surgeries and 
non-urgent procedures State-wide, which resulted in nearly all patients 
presenting with COVID-19 or suspected COVID-19 symptoms. Indeed, most 
patients who sought care for non-COVID complaints were found to have 
COVID-19 via X-rays and CT scans of their lungs, or positive test 
results if testing was available. Patients who came into the Emergency 
Department for all chief complaints including trauma ended up being 
positive for COVID. There were even multiple instances of patients who 
tested negative for COVID-19 originally and were asymptomatic when they 
were admitted for a completely unrelated reason who were then found to 
be COVID-19 positive a few days into their admission because they were 
incubating COVID-19 upon arrival. In addition, the outbreak was 
occurring in the most highly-populated city in the United States with a 
population density of 27,000 people per mile, and with a demographic 
and socioeconomic make up that made its population particularly 
vulnerable to the virus. For all of these reasons and to minimize risk 
to our staff and other patients, H+H operated under the assumption that 
every patient was a PUI (person under investigation) and took COVID 
precautions in treating them.
    During the summer months of 2020, as the first wave of the pandemic 
began to subside, H+H adjusted the level of temporary staff, as 
necessary and consistent with FEMA policy, to align with on-going and 
projected needs of expanded operations. However, total patient numbers 
in H+H facilities remained high, due to the long length of stay of 
high-acuity COVID patients from earlier periods and new COVID 
admissions. Therefore, H+H facilities remained as Expanded Medical 
Facilities throughout the entire period in question to provide critical 
care to both COVID and non-COVID patients when the system remained 
strained compared to a pre-COVID level.
    To contend with this staggering reality, H+H was required to bring 
in thousands of temporary staff members from March 21 through August 
31, 2020, the relevant time period for the reimbursement request. 
During these horrible months, H+H expanded its system-wide Med/Surg 
capacity by 84 percent and ICU bed capacity by 360 percent and staffed 
these expanded spaces accordingly, all to keep New Yorkers safe and 
alive.
    These actions were taken in compliance with FEMA's Coronavirus 
(COVID-19) Pandemic: Medical Care Eligible for Public Assistance 
(Interim) (Version 2) FEMA Policy No. 104-21-0004 (Medical Care 
Policy). According to FEMA' s Medical Care Policy, contracted staff at 
Temporary and Expanded Medical Facilities ``may be used to treat COVID-
19 patients, non-COVID-19 patients, or both, as necessary.'' In this 
articulation, FEMA policy recognizes that once the aggregate clinical 
capacity needs are overwhelmed by COVID-19, applicants must expand 
staffing, facilities, equipment and supplies as emergency protective 
measures. Such necessary actions are eligible for FEMA Public 
Assistance provided the applicant can show projected or actual need, 
which H+H did in its February 24, 2021 submission. H+H used operational 
discretion to utilize contracted surge staff as necessary to meet needs 
created by COVID-19 that evolved daily, weekly and monthly.
    H+H expanded capacity by mobilizing additional beds, conversion of 
non-medical areas to Med/Surg and ICU's space to treat the rapid influx 
of patients; no facility operated in isolated parts during this 
expansion. During these initial, overwhelming months, diagnostic and 
treatment areas, inpatient wards, registration and reception areas, and 
in many cases administrative, pediatrics areas, and ambulatory surgical 
units were co-opted for the purposes of patient treatment areas. 
Further, H+H had to mobilize tents at the entrances of Emergency 
Departments to expand facility capacity for safe patient screening and 
triaging upon entry, which demonstrates that hospitals were expanded 
both inside and outside the building envelope, as necessary.
    Given the extensive nature of the capacity expansion efforts, there 
was no way to separate or isolate the expansion from the operation of 
the larger facility. Capacity expansion of the acute hospitals was 
embedded and integrated physically into the larger operations of the 
facilities, often on the same floors and side by side the existing 
units. For the months in question, expansions did not occur in 
physically distinct areas (e.g. offsite or on separate wings or floors) 
and were not managed separately. Every facility converted rooms that 
were not originally set up as negative pressure, isolation, or oxygen 
capable rooms to ones suitable to safely care for COVID-19 patients 
with necessary infection control precautions. These rooms were 
disbursed throughout the hospitals. One of the benefits of expanding 
within the existing footprint of a facility was to avoid redundancy, to 
allow for flexibility in staffing, and for rapid response teams, such 
as cardiac arrest or airway teams, to respond wherever needed 
throughout the hospital. The distinction being assumed by FEMA between 
COVID and non-COVID areas is an artificial one not reflective of the 
real world operational and clinical circumstances and needs faced by 
H+H hospitals.
    For all of these reasons and in accordance with FEMA's own written 
policies, the 11 hospitals in the H+H system should be deemed eligible 
Expanded Medical Facilities in their entirety during the eligible time 
period. I encourage FEMA to re-assess its opinion and authorize 
reimbursement.
            Sincerely,
                                       Mitchell Katz, M.D.,
                                                 President and CEO.

    Mr. Torres. Everything the CEO said is entirely true. As 
you know, during the wave, during the early wave of the 
pandemic, the whole Health and Hospital system became a COVID 
emergency center. There was virtually no testing. So, everyone 
entering the system was presumed to have COVID-19. It was a 
severe shortage of testing, a severe shortage of PPE. There 
were medical personnel with minimal PPE falling ill to the 
virus, hence the need for surge staffing. In my view if the 11 
hospitals in Health and Hospitals, do not qualify as expanded 
medical facilities, then no hospitals in America qualify as 
expanded medical facilities because no health system was as 
overwhelmed as Health and Hospitals.
    Ms. Criswell. Thank you for reading me that letter. I have 
not seen that letter yet. But I will look into this and see 
what the specifics are and we will get back to your staff.
    Mr. Torres. Quick questions about Puerto Rico. I have 
concerns about Puerto Rico's electric grid, which was ravaged 
by Hurricane Maria in recent weeks. Tens of thousands of 
residents on the island have been left without power. What is 
the status of the $10 billion allocated for Puerto Rico's power 
grid?
    Ms. Criswell. Again, I don't have the specifics on the 
status of that. We have a strong extensive team on the ground 
that is working with the Puerto Rican government to help them 
as they are going through the recovery process as well as some 
of the mitigation efforts that they are undergoing. We will 
certainly get back to you with the status of where we are at 
with those projects.
    Mr. Torres. And are you aware that Luma Energy, a private 
firm has taken over the power grid?
    Ms. Criswell. Yes.
    Mr. Torres. Does FEMA have confidence in Luma?
    Ms. Criswell. We are working closely with the resiliency 
group out of the government of Puerto Rico. They took over 
early in June, they responded to their first event. It seems 
like that went well. But we are working closely with them and 
the government to ensure that they have the capacity and 
capability to support.
    Mr. Torres. What oversight mechanisms are in place to 
ensure that Luma is held accountable for its spending the 
billions that they will receive properly and efficiently? That 
will be my final question.
    Ms. Criswell. Yeah, again, we have an extensive team that 
is on the island supporting this on-going process. I recently 
visited Puerto Rico in my first few weeks here on the job to 
get a better understanding of where they were at with their 
recovery. Our team is working hand-in-hand with them to make 
sure that things are moving and progressing, but also being 
spent in accordance to the way they are supposed to be.
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes the gentleman from Michigan for 5 minutes, Mr. 
Meijer.
    Mr. Meijer. Thank you, Mr. Chairman. Thank you, 
Administrator Criswell, for appearing here today. You know, I 
think during the COVID-19 pandemic, we obviously saw first-hand 
the importance of emergency preparedness and also having a 
well-supplied strategic National stockpile for personal 
protective equipment and other supplies that we need to deal 
with public health crises. I just want to make sure that we are 
learning all the lessons that we can from this pandemic and 
that we put those toward preparing for the crises that may come 
down the road.
    Typically, FEMA can move resources from unaffected areas to 
affected areas during disasters. You know, when you have one 
region that is impacted, or one State, we can surge supplies 
from others. When we have something that impacts us Nationally, 
as COVID did, during a pandemic, you know, some of the 
significant supply shortages that arose when we had more of 
that regional impulse rather than that assumption that we would 
be having to act on a National level, you know, along with this 
strategic National stockpile at the Federal level, Michigan 
maintains its own Michigan strategic National stockpile, which 
is managed directly by our Department of Community Health.
    I just want to drill down on how FEMA works with State 
programs and if there are any important lessons to be learned 
from the pandemic or other steps that Congress can take to help 
facilitate coordination in the future and a flexible rotating 
stockpile approach. So, I guess, Administrator, to put it 
directly, how can the Strategic National Stockpile Program and 
State strategic stockpile programs work most effectively 
together across the range of disaster scenarios?
    Ms. Criswell. As you stated, the COVID-19 pandemic was the 
first time that our resources have been needed across all 50 
States and our Tribes and territories. It really stretched our 
ability to move resources from jurisdiction to jurisdiction. I 
know that State and local jurisdictions have been building 
their own stockpiles for many years. Some of the things that 
our role is is helping them understand what their needs are, 
where their gaps exist, and help them fill those gaps through 
whether it is applying for grant funding that we have or 
through other resources.
    Our focus is really to work with the State and local 
jurisdictions to better understand where their capabilities are 
and help them to close those gaps as needed through whatever 
Federal resource might be part of that.
    Mr. Meijer. You mentioned those Federal resources. Do you 
believe that FEMA or that Congress or some play between the two 
should be incentivizing States that don't already have their 
own stockpiles to create them?
    Ms. Criswell. I think that having your own capability, that 
is the first stop, right? Where disasters all start and end at 
the local level. So, the more capacity that we can build at the 
local level, the better they are going to be able to respond 
and not need support from the Federal Government. That level of 
capacity building is the first step in creating a prepared and 
resilient Nation. Whatever we can do to help generate that 
level of capacity building I think is a step in the right 
direction.
    Mr. Meijer. You know, and I know on the household level, I 
mean, one of the recommendations that FEMA gives is, you know, 
to have sufficient food on hand. I think it is a weeks' worth 
of food is usually that recommendation. But that whole approach 
of in your pantry, you know, you have the canned goods. You put 
the newest one in back and then take from the front so that you 
have that depth, right? You know, we are dealing with a lot of 
products in our strategic stockpile, whether they are masks or 
ventilators or, you know, a range of additional equipment that 
has an expiration date. Does FEMA work with the States to 
manage that optimal balance where items that may have an 
expiration date of 5 years' time, you know, or you have a 5-
year window of supplies that get drawn down and replenished 
consecutively, if that makes sense. I mean, do we have that 
mechanism in place to be able to best optimize the efficiency 
of those stockpiles?
    Ms. Criswell. I think where our role comes in with that, 
again, is working with our States to help them understand where 
their capacity is at and how they can best maintain that 
capacity. We provide technical assistance to States that 
request it to help them work through those level of details. We 
will be able to continue to provide that assistance through our 
National Preparedness Division.
    Mr. Meijer. Thank you. Just a final quick question, do you 
feel in your experience that States without their own 
stockpiles are at a disadvantage when it comes to Federal 
assistance?
    Ms. Criswell. I wouldn't say that they are at a 
disadvantage when it comes to Federal assistance. I think that, 
again, we are trying to build capacity at the Federal, State, 
and local level. If there is--through our process of trying to 
understand that capacity through some of our established 
practices, the threat hazard risk assessment process, we have 
an idea where those gaps may exist. So, we can better prepare 
as we are seeing storms or other disasters happen so we know 
where those gaps might be so we can be prepared to respond 
appropriately.
    Mr. Meijer. Thank you, Administrator. Thank you, Mr. 
Chairman. I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Texas for 5 minutes, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. Mr. Chairman, I have 
intelligence indicating that a 2020 Rand survey commissioned by 
FEMA found serious cultural issues at the agency for people of 
color and minorities. The survey assessed gender bias, sexual 
harassment, and gender discrimination. This survey found that 
29 percent of the employees expressed the views that their 
civil rights were being violated. Twenty percent reported 
having experienced civil rights violations based on sex. 
Eighteen percent reported having experienced civil rights 
violations based on race or ethnicity. So, this begs the 
question, what is FEMA doing to address these allegations?
    So, Madam Administrator, thank you for being with us today. 
Sorry, to rush right into this. I have been busy with some 
other committee assignments as well and if this has already 
broached--this issue has been brought to your attention, I beg 
that you would forgive me for asking it twice. But these are 
things of concern to me.
    Ms. Criswell. It is a very important issue, absolutely. I 
am very familiar with the Rand study that the previous 
administration commissioned as a result of some of the actions 
that we found were happening across the agency. Harassment at 
every level, at any level, is not tolerated and I have worked 
with my team to better understand where we were at in 
addressing the findings within that Rand report. Prior to my 
arrival, they had created a Culture Improvement Action Plan to 
begin that process. We have recently reviewed that plan, added 
some more metrics to measure our approach to addressing that 
and have reissued it out to the workforce so they understand 
that this is a commitment of mine to make sure that we hear our 
employees, understand what their concerns are, and we are 
measuring our progress against addressing those concerns.
    The Rand study also suggested that we do a follow-on 
survey, which we have done and we are right now compiling the 
results from that survey. But we are going to continue to 
tackle this head-on because this is an incredibly important 
issue. Our workforce is our No. 1 priority and that level of 
harassment and discrimination is not going to be tolerated.
    Mr. Green. I greatly appreciate your answer, but let me 
just add one additional commentary. The survey reported that 40 
percent were told to drop the gender claims, and 42 percent 
were told to drop their racial claims. I know that you are 
doing what you can and you are moving into this area as 
expeditiously as possible. But that does create some concern 
that people are encouraged to drop their claims. Any comments 
that you would like to give on the claims that are being 
dropped?
    Ms. Criswell. No, it is a very concerning claim. I would 
say one of the things that we did to address that directly, was 
we established an Office of Professional Responsibility. So, 
this is something that we did not have in the past and now it 
provides a mechanism for employees to reach out and report 
misconduct and we have an actual investigative unit that can 
address those and research them and identify the validity of 
that claim and then take action as appropriate.
    Mr. Green. Well, I do thank you very much for looking into 
this. I am eager to hear what the results are. If at all 
possible, could you please keep me informed as to how we 
proceed with it?
    Ms. Criswell. Yes, sir.
    Mr. Green. I also can sort-of track it, if I may. By the 
way, I am going to salute you for a great job that is being 
done. So, it is just important that I stay on top of this.
    Ms. Criswell. Yes, sir, absolutely.
    Mr. Green. I yield back the balance of my time.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentleman from Texas, Mr. Pfluger, for 5 
minutes.
    Mr. Pfluger. Thank you, Mr. Chairman. Thank you, 
Administrator, for your time today. I would like to just ask 
you a couple questions to start with and thanks for your 
service as a firefighter. I understand that there is a lot of 
good lessons learned there as somebody who served in the 
military, you know, I think those types of jobs can really 
teach us about preparedness. Would you say that COVID-19 is a 
concern to FEMA?
    Ms. Criswell. I think COVID-19 is a concern across the 
country. As we continue to see new variants develop, we want to 
make sure that we are staying on top of a situation and putting 
measures in place to protect our workforce.
    Mr. Pfluger. Yeah, and I appreciate your statement saying 
that FEMA continue to take all necessary measures to prioritize 
your workforce health and safety within the COVID-19 
environment. Also, would you say that FEMA is committed to 
taking every step toward mitigating any disaster? I mean, you 
kind-of--you kind-of say that as a firefighter you understand 
the impact that mitigation has. So, are you committed to taking 
every single step you can if you know about disasters that FEMA 
is working on? Are you committed to taking every step possible 
to mitigating them?
    Ms. Criswell. Yeah, I think that we have a responsibility 
and a tremendous opportunity right now to increase our approach 
to mitigation in reducing impacts from future disasters. So, it 
is one of my top priorities is to make sure that we are being 
very proactive and deliberate in our efforts in that.
    Mr. Pfluger. Well, that is good to know. For months, we 
have seen an unparalleled immigration and humanitarian crisis 
unfolding at our Southern Border. Each month, U.S. Customs and 
Border Protection is encountering a record number of migrants 
that are crossing the border illegally. They are completely 
overwhelmed. The impact that this crisis has trickled to every 
corner of the United States. When you look at the vaccination 
rates in Honduras, El Salvador, and Guatemala, the infection 
rate in Honduras is 3 times per capita that to the United 
States, yet, their vaccination rate is 5 percent. Vaccination 
rate in Guatemala is less than 1 percent, yet, 2\1/2\ times 
infection per capita compared to the United States.
    So, Administrator, talk to me about Title 42. You are going 
to mitigate to the best of your ability. I assume you are in 
favor of continuing Title 42 for our protection of our own 
country with regards to COVID-19.
    Ms. Criswell. Representative, I can't speak specifically on 
Title 42. What I can tell you is that we are taking the steps 
and the actions that we need to continue to rollout COVID-19 
vaccines to anybody who is eligible as per CDC guidelines. We 
will continue to support our Federal agencies in coordinating 
as needed.
    Mr. Pfluger. Administrator, I understand. You are the 
administrator responsible for being a voice for the emergency 
and disaster relief and the things that hit our country. So, 
wouldn't you be a voice to mitigate something and to say if we 
can prevent further infection, you have just told me in this 
very short 5 minutes, that you are going to do everything you 
can to prevent the spread of future variants of COVID-19. So, 
doesn't that include Title 42 expulsions?
    Ms. Criswell. Sir, again, I can't speak to the Title 42 
aspect of this. FEMA's role is to make sure that we are 
supporting the COVID-19 vaccine mission, as well as 
coordinating with our Federal partners to help them establish 
or to continue their operations.
    Mr. Pfluger. OK. So, FEMA basically has no role in being a 
voice for mitigating other outside infections and sources of 
infection to this country.
    Ms. Criswell. FEMA's role is to support the mitigation of 
impacts to natural disasters. That is our primary role.
    Mr. Pfluger. Well, I would say an impact to natural 
disaster that we have is using something like Title 42 to make 
sure that we don't continue to have increases in a pandemic 
that are impacting our country, impacting our own population. 
So, I would expect that with your professional experience as a 
firefighter and now in your professional role, that you would 
be a voice for that.
    Midland, Texas is the heart of my district. In March, with 
no--almost no warning from DHS, or zero warning from DHS or 
HHS, the administration established an emergency intake site to 
house unaccompanied children. Thankfully, this facility was 
closed after 3 months this week. In a letter I received from 
DHS, it said that it was determined by FEMA and referred to HHS 
Office of Refugee Resettlement that the site was basically to 
be selected and the criteria was met. Can you please tell me 
what that selection criteria was from FEMA's perspective?
    Ms. Criswell. So, our role in supporting this operation was 
to, No. 1, provide a coordinating mechanism for HHS and CBP and 
a second role was to help them in the establishment of these 
emergency intake sites. I can't speak specifically onto the 
selection criteria. But our role was, again, to support HHS and 
CBP as they were standing up those operations.
    Chairman Thompson. The gentleman's time from Texas has 
expired. The Chair recognizes the gentleman from New Jersey, 
Mr. Malinowski, for 5 minutes.
    Mr. Malinowski. Thank you so much, Mr. Chairman, and thank 
you, Administrator. I want to actually start by thanking you 
and FEMA for the extraordinary efforts that you have made in 
New Jersey, which I know are representative of what you did 
elsewhere in the country to support our vaccination efforts. We 
have one site in Newark, New Jersey, a FEMA-run site where more 
than 220,000 people were vaccinated. It is one reason why we 
are doing very, very well as a State in beating back this 
terrible disease.
    For my questions, I want to turn to the climate risks that 
you mentioned several times including your testimony. I 
appreciate that in your testimony you noted in that context 
that FEMA will, as you said, always be ready to respond when a 
disaster occurs, but the true success rests in mitigating the 
worst impacts of disasters before they occur. So, in that 
spirit, I want to ask you--I want to talk about one word, and 
that word is resilience. We have in the bipartisan 
infrastructure deal $40 billion in this category of resiliency. 
Don't get me wrong, I support it. This is money we have to 
spend and I support what FEMA does on resiliency.
    But I am concerned that sometimes some of my colleagues 
treat that resiliency money as if that is our response to 
climate. As if that is somehow green. I would note one story 
that I am sure you recently saw that the city of Miami asked 
the Army Corps recently, what are we going to do about rising 
sea levels? How are we going to protect ourselves? The Army 
Corps came back and said, well, here is what you do. You build 
a 6-mile long, 20-foot-high seawall. It is going to cost you $6 
billion. Obviously, no one in Miami was happy to hear that 
news. I have seen estimates from organizations like the Center 
for Climate Integrity that to protect every community in the 
United States just by building a seawall against the climate 
change that is already happening would cost around $300 billion 
for storm protection. The Army Corps doesn't have that kind of 
money--amount to appropriate. So, obviously, with the sea 
cities the wealthier protecting themselves. The communities 
that are less wealthy probably won't probably do anything.
    So, I want to ask just your thoughts on this. I presume 
obviously FEMA will do what is necessary to protect our 
communities, and we all agree that it would be better if we 
made these investments to prevent the catastrophic events of 
climate change rather than simply investing in the resiliency.
    Ms. Criswell. Yes, sir. We are really at a pivotal time, 
right? We are seeing more impacts from disasters, more frequent 
disasters, and we have an opportunity to really make a 
generational-level difference in the investments that we make 
to protect not only our children, but our grandchildren from 
the impacts from these future threats. FEMA has a small role in 
that. We do have several mitigation grant funds available, but 
they don't come to the level of the types of projects that you 
are talking about. But what we do have is within the programs 
and in particularly the BRIC program, the Building Resilient 
Infrastructure and Communities Program, you know, we have 
increased the amount of the Federal share so we can start to do 
more community-wide and system-wide projects within the 
communities. We also as part of that process, really encourage 
them to partner with other types of mitigation efforts that are 
on-going to reduce the impact. So, I think it is through this 
type of a partnership across many different agencies, whether 
it is Federal agencies, private sector, and the communities 
themselves that we really work together to better understand 
what they think their future risks are going to be and we do 
some long-term visionary planning for how we can reduce the 
impacts from those risks.
    Mr. Malinowski. I think it would be helpful just going 
forward that the more you can help us estimate the long-term 
policies because obviously your budget is not nearly what it 
needs to be. Again, just dealing with the level of climate 
change we currently are experiencing, Army Corps' budget is not 
nearly what it needs to be. I mean, honestly, there is nothing 
to prevent the effects of climate change, within 10 or 20 
years, like the entire Federal budget will be resiliency. I 
just I want to make the point that while I am for doing what is 
necessary, resiliency is not climate policy. Resiliency is 
resignation. This is why we got to do some of the bold and 
ambitious, yes, costly things that President Biden has 
proposed, but much cheaper than the alternative. Thank you, and 
I yield back.
    Chairman Thompson. Thank you very much. The gentleman 
yields back. Let me thank the administrator for her testimony 
and the Members for their questions. Madam Administrator, you 
have been an excellent witness. You are an excellent example of 
FEMA and its role here in responding to disasters. Let me 
assure you that our committee stands ready and willing to 
continue to engage you in whatever endeavor you have. It is 
important that as Americans, we do what we do in the interests 
of protecting our country. But as important, I want to get your 
commitment to reassess how we look at some of those underserved 
communities in disaster declarations. It is unfair that one's 
worth determines the disaster when we are all Americans. I 
think, you know, there has to be some smart people somewhere 
who can help us figure this out in a short period of time.
    The other thing I would like to get, you are committed to 
doing something with Puerto Rico. There is a little island 
called Vieques that has been just devastated to no end. We have 
been kind-of taking that as a project we want to try to help 
the people on that island and you might have seen 
correspondence down through the time raising that issue about 
how they failed to respond as well as the on-going challenges 
that that island has. So, I will be talking to you a little 
more about that.
    The Members of the committee as I have already indicated, 
may have additional questions for you. We ask that you respond 
expeditiously in writing to those questions. The Chair reminds 
Members of the committee the record will remain open for 10 
business days. Without objection, the committee stands 
adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Chairman Bennie G. Thompson for Deanne B. Criswell
    Question 1. Disasters do not affect everyone the same way--they 
exacerbate the struggles of already-vulnerable populations. Adding to 
the challenge, the current system for disaster aid sends more money to 
high-income areas over low-income, often minority, communities. One of 
FEMA's key priorities this year is integrating equity into everything 
the agency does. Can you please describe or explain which policies or 
procedures FEMA will implement to ensure more equitable outcomes?
    Answer. Response was not received at the time of publication.
    Question 2. Over the years, I have been concerned about the 
American Red Cross (ARC) falling short in meeting its mission in mass 
care operations. In June, ARC was supposed to provide clean-up kits to 
help Mississippians impacted by flooding clean their damaged homes. 
Several hundred people in Rosedale, MS gathered to receive these kits, 
but ARC only had 25, leaving hundreds of people without the needed 
materials. It concerns me that ARC did not have situational awareness 
in Rosedale to understand the scope of the need, and it causes me to 
question ARC's preparedness to respond to other disasters. Are you 
concerned about what happened in Mississippi? Are you confident in the 
Red Cross's abilities to meet its meeting the mission of administering 
mass care pursuant to Emergency Support Function #6?
    Answer. Response was not received at the time of publication.
    Question 3. The DHS Office of Inspector General (OIG) recently-
issued several troubling reports about FEMA's execution and oversight 
of the advance contract that provided short-term hotel lodging for 
disaster survivors during the 2017 disaster season. Among the many 
deficiencies cited, the OIG found that FEMA did not ensure that the 
contractor properly vetted participating hotels to make sure they were 
suitable for housing survivors or verify the accuracy of charges. The 
OIG estimated that FEMA paid more than $55 million in unverified taxes 
for unoccupied rooms. What actions is FEMA taking to address the OIG's 
finding related to the execution and oversight of this contract? The 
OIG's reports raise serious concerns over how well FEMA is executing 
and overseeing its other 88 advanced contracts. Will you commit to 
reviewing whether FEMA has encountered similar challenges with its 
other contracts?
    Answer. Response was not received at the time of publication.
    Question 4. In October 2019, FEMA stood up the Office of 
Professional Responsibility (OPR) to ensure expeditious, fair, and 
objective investigations of allegations of misconduct and harassment. 
In addition to serving as the agency's central clearinghouse for intake 
and processing of these allegations, OPR manages FEMA's Anti-Harassment 
Program (AHP). Given its recent establishment, there is a lot of 
opportunity for you, as administrator, to shape how OPR's mission is 
carried out and how the office promotes better treatment of staff. What 
is your plan for OPR and how to do you see that office improving FEMA's 
workplace culture?
    Answer. Response was not received at the time of publication.
    Question 5. A 2020 Government Accountability Office report (GAO-20-
360) found that FEMA ``did not provide reliable staffing information to 
the field during disasters.'' Also, the GAO found issues with personnel 
who were deemed ``qualified'' but did not have the skills to 
effectively perform their jobs. This is concerning and during COVID-19 
FEMA has modified its staffing and training processes. Where is FEMA 
with addressing staff training deficiencies? What challenges has FEMA 
faced in properly training their employees and what new practices has 
FEMA implemented?
    Answer. Response was not received at the time of publication.
    Question 6. In April, the Department of Housing and Urban 
Development (HUD) Office of Inspector General (OIG) released a report 
detailing the Trump administration's efforts to deny and delay aid to 
Puerto Rico. This report confirmed what many of us had been saying for 
years--President Trump denied aid to U.S. citizens at their time of 
greatest need. What is your plan for reviewing the recovery missions 
taking place in Puerto Rico and the U.S. Virgin Islands to encourage a 
full recovery?
    Answer. Response was not received at the time of publication.
    Question 7. Disasters do not affect everyone the same way and they 
exacerbate the struggles of already-vulnerable populations. Adding to 
the challenge, the current system for disaster aid sends more money to 
high-income areas over low-income, often minority, communities. One of 
FEMA's key priorities this year is integrating equity into everything 
the agency does. Can you please describe or explain which policies or 
procedures FEMA will implement to ensure more equitable outcomes?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Elaine Luria for Deanne B. Criswell
    Question 1. I want to commend FEMA for its efforts in establishing 
community vaccination centers across the country, to include the 
Military Circle Mall community vaccination center in Norfolk on the 
line between my district and Congressman Bobby Scott's district. This 
center administered more than 80,000 doses of vaccine, 50 percent of 
which helped vaccinate the underserved and the vulnerable communities 
of Hampton Roads.\1\ This was critical in helping the Nation surpass 
the President's goal of 100 million vaccinations in 100 days. About a 
month after FEMA closed the Military Circle Mall community vaccination 
center, the cities of Norfolk, Virginia Beach, Portsmouth, and 
Chesapeake teamed up and reopened the clinic to continue serving the 
community.\2\ As more and more Americans receive vaccine doses, how 
will FEMA's COVID-19 responsibilities change? What methodology is FEMA 
using to determine whether to continue or draw-down community 
vaccination centers?
---------------------------------------------------------------------------
    \1\ FEMA Press Release May 20, 2021--https://www.fema.gov/press-
release/20210521/fema-end-its-role-military-circle-mall-community-
vaccination-center-norfolk.
    \2\ News article on clinic reopening--https://www.13newsnow.com/
article/news/health/coronavirus/covid-19-vaccine-clinic-at-military-
circle-mall-is-now-open-and-accepting-walk-ins/291-217b9946-bc38-4285-
8658-8490c04d2b05.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 2. Flooding is a serious issue in my district. In fact, 
the First National Flood Risk Assessment, in 2020, found that 344,000 
Virginia properties are at risk for flooding, and expect it to increase 
to nearly 390,000 by 2050. Approximately 20 percent of property in 
Virginia Beach and 27 percent in Norfolk are at risk for flooding over 
the next 30 years.\3\ That is why I will be introducing legislation 
soon that would help FEMA establish a database of flood history 
information for properties that buyers under contract can access. And 
while I am pleased to see an increase in the fiscal year 2022 budget 
request for the Disaster Relief Fund, as a representative from a 
district that is highly susceptible to flooding, how will FEMA help 
coastal communities like mine deal with the issues of continued sea-
level rise, sunny-day flooding, and persistent high-water levels? What 
kind of creative thinking is coming out of the mitigation side of FEMA 
to address these issues?
---------------------------------------------------------------------------
    \3\ News article with link to study--https://www.wtkr.com/news/
virginia-beach-ranks-top-for-cities-at-serious-risk-of-flooding-in-
virginia. Another place to look for stats is here: https://
riskfinder.climatecentral.org/place/
virginiabeach.va.us?comparisonType=place&forecast- 
Name=Basic&forecastType=NOAA2017_int_p50&impact=Housing&impactGroup=Buil
dings- 
&level=5&unit=ft&zillowPlaceType=place&zillowVarType=Count&zillowYear=21
00.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 3a. How much money does FEMA estimate the National Public 
Infrastructure Pre-Disaster Mitigation Fund (funds Building Resilient 
Infrastructure and Communities)\4\ will receive as a result of the 
COVID disaster declaration?
---------------------------------------------------------------------------
    \4\ Building Resilient Infrastructure and Communities (BRIC) will 
support States, local communities, Tribes, and territories as they 
undertake hazard mitigation projects, reducing the risks they face from 
disasters and natural hazards. BRIC is a new FEMA pre-disaster hazard 
mitigation program that replaces the existing Pre-Disaster Mitigation 
(PDM) program.
---------------------------------------------------------------------------
    What is FEMA planning to do with it?
    Answer. Response was not received at the time of publication.
    Question 3b. Will it allocate those funds in 1 year or spread them 
out over a number of years?
    Answer. Response was not received at the time of publication.
    Question 3c. If not 1 year, will those funds remain set aside for 
pre-disaster mitigation or used for other disaster-related expenses?
    Answer. Response was not received at the time of publication.
    Question 3d. How will FEMA allow/account for variability in this 
funding following small and large disaster years?
    Answer. Response was not received at the time of publication.
    Question 4. FEMA personnel have been working under an exceptionally 
high operational tempo, whether responding to the many natural 
disasters we continue to experience or providing critical assistance in 
addressing the COVID pandemic. What steps are you taking to retain and 
replenish your workforce?
    Answer. Response was not received at the time of publication.
    Question 5. The President's budget seeks a $15.3 million reduction 
in funding for the State Homeland Security Grant Program (SHSGP)\5\ and 
a $15.3 million reduction for the Urban Area Security Initiative (UASI) 
Grant Program.\6\ These grant programs play a critical role in helping 
to keep citizens and districts like mine safe and secure from terrorist 
threats. Could you discuss the rationale of the reduction in grant 
funding?
---------------------------------------------------------------------------
    \5\ The State Homeland Security Program (SHSP) provides funds to 
support the implementation of State homeland security strategies to 
address identified planning, organization, equipment, training, and 
exercise needs to prevent, protect against, prepare for, and respond to 
acts of terrorism and other catastrophic events. In fiscal year 2021, 
Virginia was allocated $8.4 million in SHSP funds.
    \6\ The Urban Area Security Initiative (UASI) program provides 
funds to address the unique planning, organization, equipment, 
training, and exercise needs of high-risk urban areas, and assists them 
in building an enhanced and sustainable capacity to prevent, protect 
against, prepare for and respond to acts of terrorism. In fiscal year 
2021, Hampton Roads was allocated $3.8 million in UASI funds.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 6. FEMA has made several failed attempts to upgrade its 
numerous legacy grant management systems into a consolidated, 
modernized system. The most recent attempt started in 2016 and ran into 
trouble within 2 years. Initial deployment was delayed by 6 months, but 
finally achieved in March 2020. However, I understand that full 
deployment has been delayed by 3 years--to fiscal year 2023--and the 
system is now expected to cost more than double its original estimate. 
Additionally, FEMA has yet to address two GAO recommendations related 
to planning and executing tests to assess the new system's security 
controls. This system is needed now more than ever since the CARES Act 
created hundreds of millions of dollars of additional grant 
authorizations for FEMA to manage in addition to the several billion it 
disburses each year. What actions is FEMA taking to ensure the new 
grant management system will be effective and secure? What can Congress 
do to help expedite the deployment of this system?
    Answer. Response was not received at the time of publication.

                          A P P E N D I X  I I

                              ----------                              

                         Letter From Everbridge
                                      July 8, 2021.
The Honorable Bennie Thompson,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Chairman Thompson: Thank you for convening this important 
hearing Examining FEMA's Readiness to Meet its Mission on June 29, 
2021. As you are aware, the National Warning System (NAWAS) funded and 
operated by the Federal Emergency Management Agency (FEMA) is a 
communications system originally designed and implemented in the 1950's 
as a means of notifying and preparing our nation's local emergency 
managers for a nuclear attack. Fortunately, the system was never used 
for its intended purpose, but has proven invaluable to our nation's 
local emergency managers responding to and coping with natural 
disasters.
    The NAWAS supports the nonmilitary actions taken by Federal 
agencies, by the private sector, and by individual citizens to meet 
essential human needs; to support the military effort; to ensure 
continuity of Federal authority at national and regional levels; and to 
ensure survival as a free and independent nation under all emergency 
conditions, including a national emergency caused by threatened or 
actual attack on the United States.
    The NAWAS has major terminals at each State's Emergency Operations 
Center (EOC) and Emergency Management Facility. Today, the system 
consists of what is effectively a 2,200+ hardwired network telephone 
information lines. Obviously, the NAWAS is more than just a normal 
telephone system. The phone instruments are designed to provide 
protection for lightning strikes so they may be used during storms. The 
interconnecting lines are provided some protection and avoid local 
telephone switches. This ensures they are available even when the local 
telephone system is down or overloaded.
    Both the National Warning Center (NWC) and the Alternate National 
Warning Center (ANWC) at Olney, MD are staffed 24 hours per day and 
serve as the primary control for the NAWAS.
    The NAWAS is used by local officials thousands of times a year for 
emergency management coordination and response. One typical scenario is 
the use of the NAWAS during tornadoes. As storms are sighted, emergency 
managers in one town or county can communicate with their colleagues in 
other counties who are in the path of the storm, advising them as to 
direction, speed, and intensity. The drawback to this system is it 
relies on human intervention. If there is no one there to receive the 
communications, the warning is not received and cannot be further 
disseminated to others. This has resulted in missed tornado warnings.
    Today modernization and automation are planned in most 
telecommunications systems, however, to date, the NAWAS has not been 
included in any modernization plan. As new EOCs, dispatch centers, and 
public safety building are being built across the country, they are 
being hardened for availability and resiliency against significant 
threats, both natural and man-made. Unfortunately, the main 
communication hub, connecting the 2,200+ NAWAS end points has not seen 
any major efforts to strengthen or build availability and resiliency to 
the most basic response needed, communications. As our country has 
progressed significantly since the 1950's, we have endured natural 
disasters, man-made disasters and most recently a global pandemic that 
has forced the United States to rethink not only how we work, but where 
we work from. With the greater adoption of work from home, we've had to 
update and change our continuity of operations plans to adapt to a more 
mobile workforce.
    By modernizing the NAWAS, we can automate the detection and 
notifications of severe threats against the country, while ensuring the 
ability to effectively and securely communicate with a more mobile, 
device-independent workforce of emergency responders, 24 hours a day, 7 
days a week, 365 days a year using multiple modalities. We encourage 
Members to support funding to allow FEMA to proceed with this critical 
infrastructure resiliency project of modernizing NAWAS.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
